                                  Social Security Administration

                                  Office of the Inspector General





       The OIG is comprised of four components: Office of the Counsel to the Inspector General (OCIG), 

         Office of Audit (OA), Office of Investigations (OI), and Office of Executive Operations (OEO).


Office of the Counsel to the Inspector General                    Office of Investigations
OCIG reviews and evaluates legislation, regulations, and          OI conducts and coordinates investigative activity related to
standard operating procedures in terms of their impact on         fraud, waste, abuse, and mismanagement of SSA programs
program economy and efficiency or their prevention of             and operations, in accordance with the Quality Standards for
fraud and abuse. It also provides legal advice and counsel to     Investigations published by the President's Council on Integ­
the Inspector General on various matters, including: (1) stat­    rity and Efficiency; the SSA OIG Special Agent Handbook;
utes, regulations, legislation, and policy directives governing   and other applicable laws, policies, and regulations. This
the administration of SSA's programs; (2) investigative pro­      includes wrongdoing by applicants, beneficiaries, contrac­
cedures and techniques; and (3) legal implications and con­       tors, physicians, interpreters, representative payees, third
clusions to be drawn from audit and investigative material        parties, and SSA employees. OI also conducts joint investi­
produced by the OIG. OCIG also administers the Civil Mone­        gations with other Federal, State, and local law enforcement
tary Penalty (CMP) program, which was delegated to the OIG        agencies.
by the Commissioner of Social Security.
                                                                  Office of Executive Operations
Office of Audit                                                   OEO supports OIG by providing information resource man­
OA conducts comprehensive financial, performance, and             agement; systems security; and the coordination of budget,
systems audits and evaluations of SSA programs and makes          procurement, telecommunications, facilities and equip­
recommendations to ensure that program objectives are             ment, and human resources. In addition, this office is the
achieved effectively and efficiently. Financial audits,           focal point for the OIG's strategic planning function and the
required by the Chief Financial Officers Act of 1990, assess      development and implementation of performance mea­
whether SSA's financial statements fairly present the             sures required by the Government Performance and Results
Agency's financial position, results of operations, and cash      Act. OEO is also responsible for performing internal reviews
flow. Performance audits review the economy, efficiency,          to ensure that OIG offices nationwide hold themselves to
and effectiveness of SSA's programs. OA also conducts             the same rigorous standards that we expect from SSA as
short-term management and program evaluations and                 well as conducting investigations of OIG employees, when
projects focused on issues of concern to SSA, Congress, and       necessary. Finally, OEO administers OIG's public affairs,
the general public. Evaluations often focus on identifying        media, and interagency activities, coordinates responses to
and recommending ways to prevent and minimize program             congressional requests for information, and also communi­
fraud and inefficiency.                                           cates OIG's planned and current activities and their results to
                                                                  the Commissioner and Congress.
M   ission Statement
       By conducting independent and objective audits, evaluations, and
       investigations, we improve the Social Security Administration’s (SSA)
       programs and operations and protect them against fraud, waste, and abuse.
       We provide timely, useful, and reliable information and advice to
       Administration officials, Congress, and the public.




V
ision and Values

       We are agents of positive change striving for continuous
       improvement in SSA’s programs, operations, and management by
       proactively seeking new ways to prevent and deter fraud, waste, and abuse.
       We are committed to integrity and to achieving excellence by supporting an
       environment that encourages employee development and retention, and
       fosters diversity and innovation, while providing a valuable public service.
Published May 2001

Social Security Administration
Office of the Inspector General
6401 Security Boulevard
Suite 300 Altmeyer Building
Baltimore, MD 21235

To obtain additional copies of this report:

      visit our website at www.ssa.gov/oig 

                         or

                call (410) 966-4020. 

C                   ontents
Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


Significant Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Significant Management Issues Facing SSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         Issue 1: Critical Information Infrastructure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         Issue 2: Disability Redesign. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

         Issue 3: Earnings Suspense File . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

         Issue 4: Enumeration. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

         Issue 5: Fraud Risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

         Issue 6: Government Performance and Results Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

         Issue 7: Identity Theft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

         Issue 8: Representative Payee . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

         Issue 9: Service to the Public . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

         Issue 10: Systems Security and Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43


Financial Audits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45


Resolving Audit Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47


Reports Issued From October 1, 2000 through March 31, 2001. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49


Appendices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

         Appendix A - Government Performance and Results Act Work Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

         Appendix B - Reporting Requirements Under the Omnibus

                      Consolidated Appropriations Act for Fiscal Year 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

         Appendix C - Collections From Audits and Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

         Appendix D- Significant Monetary Recommendations From Prior

                     Fiscal Years for Which Corrective Actions Have Not Been Completed. . . . . . . . . . . . . . . . . 65

         Appendix E - Significant Nonmonetary Recommendations From Prior 

                      Fiscal Years for Which Corrective Actions Have Not Been Completed. . . . . . . . . . . . . . . . . 67

         Appendix F - Significant Management Decisions With Which

                      the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

4   FY 2001 SEMIANNUAL REPORT TO CONGRESS
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                5




M   essage From the 

  Inspector General
I am pleased to present the Social Security Administration’s (SSA) Office of the
Inspector General (OIG) Semiannual Report to Congress for the first half of Fiscal
Year (FY) 2001. This report meets the requirements of the Inspector General Act of
1978, as amended, and includes information that is mandated by Congress. Our
work focuses on SSA’s programs and operations that have the potential for wide-
spread fraud and abuse and those that represent the most significant management
challenges facing SSA.
     The accomplishments that are highlighted in this report result from the dedi­
cated efforts of each member of the OIG staff. I would also like to highlight several
major cases and organizational accomplishments that occurred during this report­
ing period. We aligned our audit and investigative activities to address the Agency’s
top 10 management challenges. Additionally, we expanded our SSA Fraud Hotline
and our front-end fraud prevention efforts. We also shut down a multi-million dol­
lar business that was targeting senior citizens with deceptive SSA-related mailings.
                                                                                        Inspector General James G. Huse, Jr.
This company paid penalties of over $500,000 to the Social Security trust fund.
Finally, we took the initiative on the identity theft front, hosting an all-day confer­
ence that was broadcast, in its entirety, on CSPAN.
     I remain confident that OIG employees are prepared to meet the challenges
that are before us with the highest level of integrity and accountability. Their
efforts, individually and collectively, contribute to strengthening the integrity of
Social Security programs for all Americans. I continue to be proud of our accom­
plishments and know they could not have been achieved without the Agency’s
cooperation, the support of Congress, and most of all, the dedication and commit­
ment of all OIG managers and employees.

                                          Sincerely,




                                          James G. Huse, Jr.
6                                                             FY 2001 SEMIANNUAL REPORT TO CONGRESS




R   eporting Requirements
The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual
reports. The requirements are listed below and indexed to the appropriate pages in this report.

                                                       Reporting Requirement                           Pages

Section 4(a)(2)                Review of Legislation and Regulations                                   N/A

Section 5(a)(1)                Significant Problems, Abuses, and Deficiencies                          7-46

Section 5(a)(2)                Recommendations With Respect to Significant Problems, Abuses, and       7-46
                               Deficiencies

Section 5(a)(3)                Recommendations Described in Previous Semiannual Reports on Which       65-68
                               Corrective Actions Have Not Been Completed

Section 5(a)(4)                Matters Referred to Prosecutive Authorities and the Prosecutions and    7-17
                               Convictions Which Have Resulted                                         28-32
                                                                                                       34-39

Sections 5(a)(5) and 6(b)(2)   Summary of Instances Where Information Was Refused                      N/A

Section 5(a)(6)                List of Audit Reports                                                   49-50

Section 5(a)(7)                Summary of Particularly Significant Reports                             19-46

Section 5(a)(8)                Statistical Table Showing the Total Number of Audit Reports and Total    47
                               Dollar Value of Questioned Costs

Section 5(a)(9)                Statistical Table Showing the Total Number of Audit Reports and the      48
                               Total Dollar Value of Recommendations That Funds Be Put to Better Use

Section 5(a)(10)               Audit Recommendations More Than 6 Months Old for Which No               47-48
                               Management Decision Has Been Made

Section 5(a)(11)               Significant Management Decisions That Were Revised During the           N/A
                               Reporting Period

Section 5(a)(12)               Significant Management Decisions With Which the Inspector General        69
                               Disagrees
SSA OFFICE OF THE INSPECTOR GENERAL                                                                              7




S       ignificant Activities

A constant flow of information among
our auditors, investigators, and lawyers
is critical to the success of our mission-
to improve SSA’s programs and opera­
                                             •	 Strengthened Capabilities for OIG


                                             •
                                                Investigators,
                                                 Partnership with U. S. Attorneys,
tions and protect them against fraud,        •	 Coordination of External Stake-
waste, and abuse. Each component of             holder Inquiries,
the OIG works together to effectively
                                             •	 Improvements at the SSA Fraud
address each critical issue with the
                                                Hotline, and
broad perspective that such cooperation
brings. This collaboration capitalizes on    •   Investigative Accomplishments.
staff skills and makes the most of our
limited resources.                           Assessment of SSA’s Top                     SSA OIG Deputy Inspector
                                                                                         General Jane E. Vezeris works
     Since we in the OIG are facing the      Management Challenges                       to ensure that our organization
same challenges as SSA, we also need to                                                  collaborates effectively when
work faster and smarter in order to get      Perhaps our most significant activity       addressing critical issues.
the job done and seize the benefits of       consists of analyzing and addressing
technology to ensure our success. We         SSA’s top 10 management challenges
continue to make steady progress in the      and aligning our audit and investigative
                                             efforts along these critical issues. This    We continue to
fight against fraud, waste, and abuse.
Our effectiveness is evidenced by the        year, we also redesigned our planning
                                             processes, which resulted in aligning        make steady
numerous accomplishments high-
lighted throughout this report.              our FY 2001 Annual Audit Plan along
                                             these identified management chal­
                                                                                          progress in the
     This section details several of our
                                             lenges. Our Audit Plan describes 134
most significant activities, including                                                    fight against fraud,
our:                                         reviews that we intend to conduct or
                                             initiate this FY in the following areas:     waste, and abuse.
•	 Assessment of SSA’s Top Manage­
   ment Challenges,                          1. Critical Information Infrastructure

•   Fugitive Felon Program,                  2. Disability Redesign

•	 Expansion of the Cooperative Dis­         3. Earnings Suspense File
   ability Investigations Teams,             4. Enumeration
•	 Coordination of Identity Theft            5. Fraud Risk
   Conference,
                                             6. Government Performance and
•	 Fight Against Senior Scams and               Results Act
   False Statements,
                                             7. Identity Theft
        8                                                                  FY 2001 SEMIANNUAL REPORT TO CONGRESS




                                   8. Representative Payee                                 person flees, for a crime, or an
                                                                                           attempt to commit a crime, which
                                   9. Service to the Public, and
                                                                                           is a felony under the laws of the
                                   10. Systems Security and Controls.                      place from which the person flees,
                                       In the Significant Management                       or which, in the case of the State of
                                   Issues Facing SSA section of this                       New Jersey, is a crime of the first
                                   report, we discuss each of these chal­                  through fourth degree; or
                                   lenges in more detail and summarize                 •	 violating a condition of probation
                                   our related audit and investigative                    or parole imposed under Federal or
                                   efforts for this reporting period.                     State law.

                                   Fugitive Felon Program                                  On any given day, there are numer­
                                                                                       ous fugitive felons who work hard at
                                       The Fugitive Felon Program (Program)            eluding justice. Unfortunately, some of
                                       was established as a result of the enact­       these fugitives are receiving public
                                       ment of the Personal Responsibility and         funds that assist them in their flight.
                                       Work Opportunity Reconciliation Act of          Under this Program, we identify indi­
                                       1996, Public Law 104-193, commonly              viduals illegally receiving SSI and notify
                                       known as the Welfare Reform Act, on             SSA so the Agency can stop payments
                                       August 22, 1996. Generally, this law            to these individuals. We are also avail-
OIG Agents assist Federal, State and
                                       makes a person ineligible to receive            able to help law enforcement officials
local officials in the apprehension of Supplemental Security Income (SSI)              find and apprehend these criminals,
criminals.                             payments during any month in which              since this Program allows SSA and the
                                       the recipient is:                               OIG to provide the last known address
                                                                                       for the fugitive to other law enforce­
                                   •	 fleeing to avoid prosecution for a
                                                                                       ment officials.
                                      crime that is a felony;
                                                                                           The table below demonstrates the
                                   •	 fleeing to avoid custody or confine­             success of this Program during this
                                      ment after conviction, under the                 reporting period and since its inception
                                      laws of the place from which the                 in 1998.

                                                   Fugitive Felon Project Statistics

                                                                                     FY 2001         Since Inception
                                                                                   Year-to-Date        in FY 1998

                                               Fugitives Identified                         7,332              29,863
                                               Fugitive Arrested                              663                3,540
                                               Overpayments                          $13,783,718          $53,591,239
                                               Estimated Savings                     $20,257,166          $91,476,159
SSA OFFICE OF THE INSPECTOR GENERAL                                                                           9




    Not only are fugitive felons cap­       matches to compare warrant informa­
tured as a result of this ongoing effort,   tion at the Federal and State levels with
but States also realize program savings     SSA’s SSI rolls. To date, we have been
when they capture fugitive felons and       successful in securing Memorandums
remove them from State supplemented         of Understanding with the National
programs. For example, our New York         Crime Information Center (NCIC),
Field Division entered into a joint         Federal Bureau of Investigation (FBI),
investigative effort with the New York      and U.S. Marshals Service in further­
State (NYS) Division of Parole; NYS         ance of the goals of this Program. We
Welfare Inspector General; and the          worked with the FBI, whose Criminal
New York City (NYC) Department of           Justice Information Services Division
Corrections in order to apprehend           oversees NCIC operations, to stream-
wanted parole fugitives receiving SSI       line the process through which this
payments and/or other welfare benefits.     information is collected and dissemi­
    In this 3-day off-site operation, we    nated. To that end, the FBI expanded
sent a “ruse” letter to approximately       its infrastructure at the Information
400 fugitives, of which 36 were SSI         Technology Center in Fort Monmouth,
recipients. This effort resulted in the     New Jersey, to manage the additional
arrest of 41 fugitives, 8 of whom were      workload created by this Program.
SSI recipients. The remaining 28 fugi­           In addition, SSA has entered into
                                                                                        OIG special agents continuously
tives, who we identified as SSI recipi­     computer matching agreements with           train to maintain a variety of
ents but were not apprehended, will         New York and Baltimore City, and the        standard law enforcement skills.
have their payments stopped. SSA is         States of Massachusetts, Kentucky,
calculating overpayments for the 36         Nebraska, New Jersey, South Carolina,
individuals.                                Tennessee, Washington, Alaska, Colo­
    In another project under the direc­     rado, and Rhode Island. Subsequent to
tion of the U.S. Attorney’s Office, East-   the end of this reporting period, SSA
ern District of Michigan, our Chicago       has also entered into computer match­
Field Division participated in an opera­    ing agreements with the City of Phila­
tion that focused on locating and           delphia, and the States of California
arresting 400 adult and juvenile            and New York.
chronic violent offenders. The 3-day
operation resulted in the arrest of 82      Expansion of the
individuals, 67 of whom were receiving      Cooperative Disability
SSI payments. The apprehended indi­         Investigations Teams
viduals were wanted for offenses rang­
ing from armed robbery and assault          In conjunction with SSA’s Office of
with intent to do bodily harm to crimi­     Disability, we administer the Coopera­
nal sexual conduct.                         tive Disability Investigations (CDI)
    The continued success of this Pro-      teams under an Agency pilot project.
gram is reliant on using automated data     These teams are comprised of OIG
10                                                               FY 2001 SEMIANNUAL REPORT TO CONGRESS




                investigators, State law enforcement                        the total number of teams to 13. The
                officers as well as SSA and State Dis­                      success of the CDI Program is directly
                ability Determination Services (DDS)                        attributable to the close collaboration
                personnel. These teams use their com­                       among OIG, SSA, DDS, Office of
                bined resources and talents to investi­                     Hearings and Appeals (OHA), and
                gate suspicious initial and continuing                      local law enforcement staff who dedi­
                claims of disability referred to the teams                  cate themselves to the vigilant steward-
                by DDS offices.                                             ship of public funds and the Agency’s
                    Two additional teams are set to                         concept of “zero tolerance for fraud.”
                begin full operation later this year in
                Massachusetts and Tennessee bringing

                      Cooperative Disability Investigations

                               Project Statistics 

                             FY 2001 Year-to-Date

                                                                      SSA
                           Allegations         Confirmed          Recoveries &                                   Non-SSA
                            Received          Fraud Cases          Restitution          SSA Savings*             Savings*

     California                      160                   89                     0         $5,084,748            $3,877,440
     Florida                           27                    3                    0           $162,080                $89,512
     Georgia                         122                 104               $9,868           $5,768,062            $1,958,773
     Illinois                          70                  26              $5,264           $1,590,860                         0
     Louisiana                         94                  23                     0         $1,365,160              $294,500
     Missouri                          86                  78              $4,916           $4,861,580              $474,360
     New Jersey                        48                    5           $36,611              $312,410            $1,442,271
     New York                          49                  35            $36,137            $2,231,540            $2,459,130
     Oregon                            89                  47                     0         $2,619,609              $823,030
     Texas                             58                  35                     0         $2,025,460              $591,008
     Virginia                          71                    6                    0           $399,000                 $6,779
           TOTALS                    874                 451            $92,796         $26,420,509           $12,016,803

     *SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a result of CDI investiga­
     tions, using a formula developed by the Office of Disability. When a CDI investigation supports the cessation of an in-
     pay case, the SSA program savings are calculated by multiplying the actual monthly benefit times 60 months. Non-
     SSA savings are also projected over 60 months whenever another governmental program withholds benefits as a
     result of CDI investigations, using estimated or actual benefit amounts documented by the responsible agency.
SSA OFFICE OF THE INSPECTOR GENERAL                                                                               11




CDI Team Case Highlights                      heel injury, back problems, hernias,
                                              high blood pressure, prostate problems,
Master Electrician Fraudulently               and eye problems. He added that he
Receives Social Security and Workers’         was unable to drive and had difficulty
Compensation Benefits                         walking.
Based on an anonymous complaint,                   The case was referred for investiga­
our Atlanta CDI team investigated a           tion because the claimant made incon­
man who was a licensed Master Electri­        sistent statements about his work
cian and foreman for an electrical con-       history and was seen driving himself
tractor, although he claimed to be            away from the SSA office. Investigators
unable to work due to a back injury           conducted an undercover investigation
sustained in 1993 at his place of             during which they observed no physical
employment. Since 1996, he has                impairments or limitations, in spite of
worked or supervised work on the con­         the claimant’s use of a walker when he
struction of various commercial and           appeared for a consultative examination
residential sites, and performed Gov­         (CE). The investigation also revealed
ernment contract work at the Veterans         that the claimant ran a painting busi­      Assistant IG for Investigations,
                                              ness for which he and his wife did all of   Patrick P. O’Carroll and his
Administration Hospital in Decatur,                                                       Deputy, Steve Mason, oversee the
Georgia.                                      the work. His disability claim was          operation of the CDI teams.
    Investigators videotaped him              denied.
climbing ladders, swinging sledgeham­
                                              Parole Violator Collects SSI Payments
mers, and carrying pipe despite his           While Working at Nursing Home
allegedly disabling back condition.
During this period of employment, he          Our Chicago CDI team investigated an
collected approximately $75,000 in            Illinois man who concealed work activ­
Workers’ Compensation benefits and            ity in order to collect more than
more than $14,000 in Social Security          $39,431 in SSI payments since 1993.
disability benefits to which he was not       The man claimed he was unable to
entitled. The man’s benefits were termi­      work due to affective mood disorders.
nated, and the criminal case will be          DDS staff referred the case for investi­
handled by a special prosecutor.              gation after an anonymous caller
                                              alleged fraud. Our investigation dis­
Man Runs Painting Business While              closed that the claimant was working at
Collecting Social Security Benefits           a nursing home in Chicago and had an
Our Baton Rouge CDI team investi­             outstanding warrant because of a pro­
gated a Louisiana man who faked mul­          bation violation.
tiple disabilities in order to file a false        During an interview with our
initial claim for Social Security disabil­    investigators, the subject said he knew
ity benefits. The man claimed he was          he was in violation of Social Security
unable to work because of bad knees, a        policy due to his employment and also
12                                        FY 2001 SEMIANNUAL REPORT TO CONGRESS




     acknowledged the outstanding warrant.         2000, and placed the infant in the cus­
     He was arrested, and his SSI payments         tody of relatives. Further, SSA denied
     were suspended due to his work activity       the disability claim.
     and incarceration. SSA realized
     $28,800 in program savings.                   Coordination of Identity
                                                   Theft Conference
     Woman Fakes Multiple Disabilities
     to Collect Disability Benefits                We hosted a 1-day workshop in Wash­
                                                   ington, D.C. on October 25, 2000,
     Based on a DDS referral, our Oakland
                                                   which focused on identity theft preven­
     CDI team investigated a woman who
                                                   tion and public education. The work-
     faked multiple disabilities in order to
                                                   shop involved over 30 speakers from
     apply for Social Security disability ben­
                                                   the public and private sectors. The
     efits. Our investigators found that she
                                                   workshop’s goal was to provide the pri­
     was working and was also on parole for
                                                   vate sector, privacy rights advocates,
     an unrelated offense. A CDI investiga­
                                                   and representatives from Congress an
     tor and the subject’s parole officer inter-
                                                   opportunity to discuss identity theft
     viewed the woman, who then admitted
                                                   prevention in an open forum. Notifica­
     that she was working and did not really
                                                   tion of this workshop was published in
     “hear voices,” as she had described in
                                                   the Federal Register (65 F.R. 51049,
     her disability claim. The woman’s claim
                                                   August 22, 2000). CSPAN broadcasted
     was denied.
                                                   this conference in its entirety.
     Woman Poisons Child to Obtain Dis­
     ability Benefits                              Fight Against Senior Scams
                                                   and False Statements
     Based on a referral from medical per­
     sonnel who noticed suspicious blood           Our Office of the Counsel to the
     test results, our Salem CDI team inves­       Inspector General (OCIG) administers
     tigated a woman who poisoned her              the Civil Monetary Penalty (CMP)
     infant daughter with opiates in order to      program, which the Commissioner of
     cause neurological impairments. She           Social Security delegated to the OIG.
     claimed that her daughter had severe          This authority allows OIG to impose
     epilepsy and filed an initial application     CMPs against violators of sections
     for Social Security disability benefits.      1140 and 1129 of the Act.
          Our investigators subsequently
     determined that the claimant’s mother         Section 1140 of the Act -
     intentionally had been giving the child       Misleading Advertising
     toxic amounts of codeine to induce sei­
     zures. Local authorities charged the          Section 1140 of the Act prohibits the
     mother with attempted murder, to              use of SSA’s program words, letters,
     which she pleaded guilty in October           symbols, or emblems in advertisements
                                                   or other communications in a manner
SSA OFFICE OF THE INSPECTOR GENERAL                                                                              13




that falsely conveys SSA’s approval,        ments and briefly describe one of our
endorsement, or authorization. Each         many successful cases.
misleading communication subjects the
violator to a maximum $5,000 penalty.       Lead Agency, Inc. Agrees to $595,000
     Our nationwide enforcement             CMP Settlement
efforts in this area send a clear message   On February 20, 2001, the U.S. Attor­
to those companies who deceive senior       ney for the Eastern District of Texas
citizens under Social Security’s good       and our Office reached an all-cash set­
name. Tricking seniors into providing       tlement in a lawsuit against Lead
sensitive personal data, under the guise    Agency, Inc. (Lead Agency), a multi-
of Social Security-related services, is     million dollar mail order business. Lead
both reprehensible and illegal.             Agency sent deceptive direct-mail
     Employing a variety of novel legal     advertisements nationwide, primarily
and investigative techniques, a team of     to senior citizens.
our attorneys and investigators worked           Based on the investigation con­
with Department of Justice (DoJ) law­       ducted by our attorneys and investiga­
yers to expose, and subsequently termi­     tors, we determined that Lead Agency’s      Kathy Buller, Counsel to the Inspector
nate, a series of nationwide scams          solicitations tricked seniors into think­   General, and Glenn Sklar, Deputy
aimed at senior citizens. Below, we         ing that its mailings originated from       Counsel, guide OIG’s cadre of legal
report the current period’s accomplish-                                                 experts.
                                            SSA or were approved or authorized by
                                            SSA. As a result, thousands of senior
Misleading Advertising                      citizens provided their original signa­
Section 1140 Statistics                     ture, age, and home telephone number
                                            to Lead Agency. This sensitive informa­
                              FY 2001
                              Year-to-      tion was then resold, for up to $13 for
                               Date         each reply. We also determined that the
                                            company generated millions of dollars
 Complaints Received             18
                                            from this scam.
 New Cases Opened                15              As a result of our efforts, Lead
 Cases Closed                    17
                                            Agency signed an agreement to pay
                                            $595,000 in CMPs, cease all offensive
            No Violation         9          mailings, and formally dissolve the cor­
                                 7          poration. This money was paid in full
  Voluntary Compliance
                                            to SSA. The company also agreed to a
  Settlement Agreement       1/$50,000      permanent injunction that prevents the
     (# of cases/amount)
                                            company and its officers and directors
    Penalty/Court Action         0/0        from resuming such offensive conduct
     (# of cases/amount)
                                            in the future.
 Number of Hearings              0
 Requested
       14                                                   FY 2001 SEMIANNUAL REPORT TO CONGRESS




                       Section 1129 of the Act - False              SSI Recipient Fails to Report Inherit­
                       Statements                                   ance

                                                                    Our Los Angeles Field Division discov­
                       Section 1129 prohibits persons from
                                                                    ered that an SSI recipient, who had
                       making false statements or representa­
                       tions of material facts in connection        been receiving benefits for several years,
                                                                    had opened a trust fund for himself
                       with obtaining or retaining benefits or
                                                                    with inherited funds. He failed to dis­
                       payments under titles II or XVI of the
 Our CMP Program       Act. After consultation with DoJ, OIG
                                                                    close this information to SSA and made
                                                                    two false statements to SSA that
                       is authorized to impose penalties of up
 continues to grow                                                  resulted in a $26,000 overpayment. On
                       to $5,000 for each false statement or
                                                                    December 28, 2000, we settled a false
as our investigative   representation, as well as an assessment
                                                                    statement CMP action against him,
                       of up to twice the amount of any result­
                                                                    and the former SSI recipient agreed to
      organization     ing overpayment. This program contin­
                                                                    pay a one-time, lump-sum payment of
                       ues to grow as our investigative
                                                                    $41,000 to SSA.
            matures.   organization matures.
                            The following table and cases high-     First CMP Recovery Against Third-
                       light our results for these activities for   Party Facilitator
                       the first half of FY 2001.
                                                                    A woman who allegedly provided false
                                                                    information to SSA in her capacity as
                         False Statements                           an interpreter for her daughter agreed
                       Section 1129 Statistics                      to pay a $5,500 CMP to SSA. Her false
                                                                    statements, regarding residency and
                                                    FY 2001         resource issues, resulted in a significant
                                                  Year-to-Date
                                                                    overpayment to her daughter. She
                       Cases Referred from            114           repaid $5,500 to SSA, and SSA contin­
                       Office of                                    ues to collect the overpayments that
                       Investigations                               were made to her daughter. The impact
                       CMP Cases Initiated             37           of this case is significant—it is the first
                                                                    recovery against an alleged third-party
                       CMP Cases Closed                64           facilitator under the CMP statute.
                       CMP Penalties and            $606,679        Mother Deceives SSA by Concealing
                       Assessments                                  Income
                       Number of Hearings              12           A mother serving as representative for 

                       Requested                                    her son made false statements to SSA to

                                                                    conceal her income while working as a 

                                                                    nurse. As a result, she improperly col­

                                                                    lected $6,828 in SSI payments for her 

SSA OFFICE OF THE INSPECTOR GENERAL                                                                               15




son. Because of her income, her son          that there is nothing like having audio
was never actually eligible to receive       and video evidence when it comes to
SSI. After initiating a CMP action, we       getting an indictment and conviction.
obtained a $14,328 settlement, which         The Assistant U.S. Attorneys who pros­           Our special agents
was paid in full.                            ecute cases know what impact this kind
                                             of evidence can have and expect this             use the latest
Woman Uses Two Identities to                 level of sophistication from today’s
Defraud SSA                                                                                   technology to
                                             criminal investigators. We can now do
Based on a referral from the NYS             more high-tech investigations, includ­
Human Resources Administration, our          ing court-ordered wiretaps or installa­          conduct
New York Field Division conducted an         tion of audio/video surveillance devices
                                             for long-term surveillance. Our techni­
                                                                                              investigations.
investigation of a woman who con­
fessed to collecting Social Security and     cal investigative specialist is available to
SSI payments under two identities, and       consult with investigators and others
making numerous false statements to          on the most effective equipment and
SSA.                                         techniques for different scenarios.
    The NYC Bureau of Fraud Investi­
gations initially identified this fraudu­    Partnership with U. S.
lent activity through the Automated          Attorneys
              Finger Imaging System,
                                             In the last reporting period, we
               which matched the finger-
                                             reported that we had placed attorneys
               prints of the subject who
                                             in our Office of Investigations (OI)
               was simultaneously
                                             field divisions for the first time. Subse­
               receiving public assistance
                                             quently, one of these attorneys took on
             and food stamps under both
                                             additional work as a Special Assistant
identities in New York. She voluntarily
                                             U.S. Attorney, working with the U.S.
agreed to cooperate with SSA to repay
                                             Attorney’s Office (USAO) in Phoenix
her $3,096 overpayment and agreed to
                                             to prosecute crimes against SSA that
an additional $25,000 CMP settle­                                                           OIG attorneys work with U.S.
                                             the U.S. Attorney does not have suffi­
ment.                                                                                       Attorney’s Offices to prosecute
                                             cient resources to pursue. In the first 2
                                                                                            crimes against Social Security.
Strengthened Capabilities                    months of this program, the subjects of
                                             11 different OIG investigations were
for OIG Investigators
                                             indicted for theft of government funds
In order to enhance the capabilities of      and related charges. An agreement is in
our field investigators in acquiring evi­    progress to provide similar services to
dence through the use of audio and           the USAO in Los Angeles, where the
video surveillance equipment, we             immediate focus will be on the prose­
recently hired a Program Manager for         cution of crimes involving identity
Technical Investigative Services. Experi­    theft and the misuse of Social Security
enced law enforcement officers know          numbers (SSN).
          16                                                                FY 2001 SEMIANNUAL REPORT TO CONGRESS




                                    Coordination of External                         Improvements at the SSA
                                    Stakeholder Inquiries                            Fraud Hotline
                                    Within our Office of Executive Opera­            Our Allegation Management Division
                                    tions (OEO), the External Affairs Divi­          (AMD), recipient of the President’s
                                    sion (EAD) administers OIG’s public              Council on Integrity and Efficiency
                                    affairs, media, and interagency activi­          Award for Excellence in 2000, operates
                                    ties; coordinates responses to congres­          the SSA Fraud Hotline and has made
                                    sional requests for information; and             great strides since its inception in the
                                    communicates OIG’s planned and cur-              early days of the OIG. From 1 program
                                    rent activities and their results to the         specialist in 1995, AMD’s staff has
Assistant Inspector General for     Commissioner and Congress. EAD                   grown to a division of almost 60
OEO, Stephanie Palmer, oversees     works in partnership not only with OI            employees, including program special­
the administration of personnel,
                                    staff, but with Office of Audit’s (OA)           ists, analysts, investigators, and man­
budget, quality assurance, public
affairs, and systems support.       Quick Response Team. This Team per-              agement staff. AMD is our front line
                                    forms short-duration, time-sensitive             for receiving allegations of fraud in SSA
                                    projects that address requests from              programs and operations.
                                    Congress, SSA management, other Fed­                  These allegations, plus the allega­
                                    eral agencies, SSA beneficiaries as well         tions received by our OI field divisions,
                                    as their representatives, and members of         come from a variety of sources and cut
                                    the public.                                      across SSA programs as shown in the
                                         In the first half of FY 2001, EAD           pie charts below. So far in FY 2001,
                                    responded to 62 requests for informa­            AMD’s program specialists, who are the
                                    tion from congressional offices; 28              backbone of the Division, answered
                                    requests from members of the media;              45,418 telephone calls and received
                                    and numerous letters, faxes, emails, and         11,437 allegations via correspondence,
                                    telephone calls from the general public.         fax, or email.

Allegations Received by Category                                      Allegations Received by Source
October 1, 2000 through March 31, 2001                                October 1, 2000 through March 31, 2001
                            Old Age and Survivors
  Other–1.8%                                                          Anonymous–21.2%                               *Other–.1%
                                   Insurance–11%
                                                                                                           too small to be represented

                                       Disability–15.7%                                             Beneficiaries–2.1%

                                                                                                        Public Agencies–3.4%

                                           SSI Aged–1.2%
                                                                                                                SSA Employees
                                                                                                                       10.4%
                                      SSI Disability–16.9%
                                                                                                     Law Enforcement–10.2%
                                          * Employee– .4%
Social Security Number–53%              too small to be represented   Private Citizens–52.6%
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                       17




     AMD is continually working to
update and improve its processes. In
                                                        Investigative Statistics

October 2000, AMD upgraded its tele­                                                             FY 2001
phone system and added a series of call-                                                         Year-to-
                                                                                                  Date
directing and informational messages,
which provide callers with useful infor­                 Allegations Received                       53,742
mation about our Hotline, 24 hours a                     Cases Opened                                 4,799
day, 7 days a week in both English and
Spanish.                                                 Cases Closed                                 4,657
     The use of email referrals to both                  Arrests/Indictments                          1,460
SSA and OI, and the electronic input
and retrieval of this information has                    Total Convictions                            1,866
streamlined AMD’s processes. Our web-                                            Criminal               807
site, www.ssa.gov/oig, also offers visitors                                    Civil/CMP                  43
useful information about reporting fraud
as well as the ability to send allegations                                 Illegal Alien
                                                                        Apprehensions                   353
to the Hotline via the Internet, taking
the Hotline into the electronic age.                                     Fugitive Felon
                                                                        Apprehensions                   663
     AMD’s program analysts also con-
duct quality assurance reviews of the
Hotline’s efficiency and productivity.
They recommend changes in organiza-
tion, work methods, and allegation
                                                              Funds Reported
processing to continue improving                   FY 2001                                            Non-SSA
                                                 Year-to-Date                SSA Funds                 Funds*
AMD’s operational efficiency.
                                              Scheduled
Investigative                                 Recoveries                       $9,239,876                $186,558
Accomplishments                               Fines                              $283,253                $355,772
In addition to the pie charts on the          Settlements/
preceding page, the following tables          Judgments                        $2,197,895                   $5,000
represent the collective efforts of our       Restitution                      $9,193,191            $21,004,880
OI headquarters and field divisions,
including the SSA Fraud Hotline, for          Estimated Savings              $73,626,888             $12,974,928
the first half of FY 2001.
                   TOTALS                        $94,541,103            $34,527,138

                                              GRAND TOTAL                             $129,068,241
                                              *Non-SSA Funds represent monies attributed to other government
                                              organizations and financial institutions that benefit from the results of
                                              our investigative work. All figures include funds reported for civil
                                              actions and civil monetary penalty actions.
18   FY 2001 SEMIANNUAL REPORT TO CONGRESS
SSA OFFICE OF THE INSPECTOR GENERAL                                                                              19




S       ignificant Management 

        Issues Facing SSA

Each year we assess the most significant     of these management issues and our
management issues facing SSA. This           related audit and investigative work.
exercise has been replicated across the
Federal sector. It has been valuable in      Issue 1: Critical Information
focusing congressional attention on          Infrastructure
mission-critical management problems
and in serving as a catalyst for action in   As technology advances and our reli­
resolving significant issues across gov­     ance on technology increases, the need
ernment. These management issues             for a strong information infrastructure
reflect discussions that we have had         becomes even more important. Along
with SSA and include the progress SSA        with the explosive growth in computer
has made over the last year.                 interconnectivity comes the ability to
     Though Solvency remains a con­          disrupt or sabotage critical operations,
cern for SSA, and while a strong econ­       read or copy sensitive data, and tamper
omy has extended the life of the trust       with critical processes. SSA’s current     We continue to address the
                                             information security challenge is to       challenges that exist in main­
fund, there will not be any major solu­                                                 taining a secure critical infor­
tion to this problem until the President     understand system vulnerabilities and      mation infrastructure.
and the Congress come to an agree­           how to mitigate them effectively. At
ment. Because of this, we decided not        SSA, this means making sure that its
to continue to include Solvency as part      critical information infrastructure is
of our assessment this year. In prior        secure.
years, we have also included Program              Many challenges exist in obtaining
Complexity as a significant issue, but       and maintaining a secure critical infor­
removed it this year because we believe      mation infrastructure. One of these
that the issue is too broad.                 challenges is the rising expectations of
     Based on our audit and investiga­       SSA’s customers. The American public
tive work and new legislation, we have       expects SSA to provide service compa­
added two issues that we believe need        rable to private industry. This can only
closer attention - Critical Information      be accomplished by keeping current
Infrastructure and the Representative        with technological changes.
Payee Program. Below we discuss each              Our audit and investigative work
                                             has disclosed weaknesses with SSA’s
    20                                                    FY 2001 SEMIANNUAL REPORT TO CONGRESS




                       critical information infrastructure             This Team provides technological
                       efforts. We recently audited SSA’s Sys­    assistance to our investigators as well as
                       tems Security Program, and our find­       investigative assistance to the Agency in
     SSA’s current     ings indicated SSA needed to develop a     resolving intrusions into SSA’s network
                       more comprehensive system security         computer systems. In addition, this
         information   plan for the mainframe and distributed     Team has gained the added responsibil­
                       computing environments, implement          ity of identifying and addressing the
security challenge     global email and other appropriate         exploitation of SSA’s systems and elec­
                       methods for broadcasting computer          tronic services.
 is to understand      incidents, and develop sanctions for            During this reporting period, we
                       users who cause system disruptions or      participated in the following systems
             system    share passwords. Other reviews indi­       security and controls related activities:
                       cated that SSA needed to terminate
   vulnerabilities                                                •	 Sponsored computer intrusion
                       access to critical processes when access
                                                                     training for members of ECT and
                       is no longer needed and consistently
         and how to    perform required background checks of
                                                                     an SSA employee from the Division
                                                                     of Network Engineering responsi­
   mitigate them.      certain SSA employees.
                                                                     ble for firewall configuration and
                            Each year, we contract with a pub­
                                                                     security issues;
                       lic accounting firm to audit SSA’s cov­
                       erage of certain critical systems and      •	 Provided a workshop presentation
                       applications. The firm’s findings have        at the SSA National Systems Secu­
                       included the need for SSA to                  rity Conference on hackers, their
                       strengthen system password require­           motivation, and techniques;
                       ments and establish a security program     •	 Continued to participate on an
                       for its Internet environment. We are          OIG-wide computer intrusion
                       also members of several critical infra­       workgroup to share information
                       structure protection workgroups and           and provide investigative support to
                       committees that provide guidance and          the OIG community;
                       monitor the Agency’s progress in this
                       area.                                      •	 Worked with the Security Specialty
                            As SSA embraces “electronic service      Division, Federal Law Enforcement
                       delivery,” many of its functions will be      Training Center, to develop a cur­
                       available on the Internet. With this          riculum for law enforcement train­
                       transition, we expect that the occur­         ing for critical infrastructure
                       rence of attempted Internet fraud and         protection; and
                       other criminal activity conducted in an    •	 Established liaison with law
                       automated environment will increase.          enforcement and Department of
                       We established the Electronic Crime           Defense agencies to exchange early
                       Team (ECT) within our Critical Infra­         warning information on physical
                       structure Division to meet this chal­         and cyber threats.
                       lenge.
SSA OFFICE OF THE INSPECTOR GENERAL                                                                            21




    During the reporting period, we             SSA has taken several steps to
also completed the following review.        improve its IT capital planning and
                                            investment control process for compli­
Information Technology Capital              ance with CCA. However, SSA’s IT
Planning and Investment Control             capital planning and investment pro­
Process at SSA
                                            cess did not fully support a capital
The objective of this audit was to evalu­   planning and investment control pro­
ate SSA’s information technology (IT)       cess, as envisioned by GAO and the
capital planning and investment con­        Federal CIO Council. SSA needs to
trol process for compliance with the        make additional Agencywide improve­
Clinger-Cohen Act of 1996 (CCA).            ments, in the Selection, Control, and
The purpose of CCA was to promote           Evaluation phases of its IT investment
improvements in the use of IT to sup-       process.
port Agency missions and improve                In response to our draft report, SSA
Agency management processes for             plans to explore more systematic risk
acquiring and managing IT invest­           modeling procedures for proposed IT
ments. Agency responsibilities defined      projects by:
in CCA include: (1) capital planning        •	 Evaluating decision support soft-
and investment control; (2) perfor­            ware;
mance/results-based management and
reporting requirements; (3) appoint­        •   Re-examining the IT Investment
ment of an Agency Chief Information             Portfolio System as a tool to collect, Assistant Inspector General for
Officer (CIO); and (4) exception                analyze and report IT project          Audit, Steve Schaeffer and his
                                                accountability information;            Deputy, Gale Stone, oversee our
reports on major IT acquisitions that
                                                                                         Office of Audit.
have significantly deviated from cost,      •	 Establishing more detailed policies
performance, or scheduled goals.               and procedures for conducting
     In February 1997, the General             post-implementation reviews in
Accounting Office (GAO) issued guid­           2001; and
ance to all Executive Branch agencies
for evaluating IT investment decision-      •	 Performing post-implementation
making for implementing CCA and                reviews on appropriate IT projects.
other major legislation. While SSA is
not required to, and has not adopted
                                            Issue 2: Disability Redesign
this guidance, the Federal CIO Counsel      SSA manages two large Federal pro-
has endorsed this guidance as a “best       grams that pay monthly benefits to
practice” for implementing CCA. The         qualified individuals with severe dis­
guidance provides a three-phase process     abilities—the Disability Insurance (DI)
(Selection, Control, and Evaluation)        and SSI programs. In the 3-year period
for capital planning and IT invest­         between FYs 1991 and 1993, initial
ments.                                      claims for these benefits climbed by
  22                                                       FY 2001 SEMIANNUAL REPORT TO CONGRESS




                       almost one-third, from 3 to 3.9 mil-        for Today, Planning for Tomorrow, was
                       lion. SSA began experiencing difficulty     issued on March 12, 1999. The plan
                       processing disability claims in a timely    had four broad goals: Improve the Dis­
                       manner. Moreover, as many as two-           ability Adjudication Process; Enhance
We continuously        thirds of claimants who filed an appeal     Beneficiaries’ Opportunities to Work;
                       eventually received a favorable decision    Safeguard the Integrity of Disability
  monitor SSA’s        at the hearing level, which could indi­     Programs; and Improve the Knowledge
                       cate potential problems with either ini­    Base for the Next Century.
       transition to   tial or appellate decisions and raises          In August 1999, SSA published
                       questions about the fairness and effi­      plans to improve the hearings and
electonic service      ciency of the process. SSA concluded        appeals processes. SSA designed the
                       that the best approach to effectively       Hearings Process Improvement and the
          delivery.	   respond to these problems was to fun­       Appeals Process Improvement plans to
                       damentally overhaul the way in which        expedite OHA processes for appealed
                       disability claims are processed to decide   cases and to reduce backlogs.
                       whether or not a claimant was eligible          SSA began implementing its Elec­
                       for disability benefits.                    tronic Disability (eDib) System in the
                            To that end, SSA embarked on an        Spring of 1999. The eDib System is the
                       ambitious series of initiatives to          Agency’s technological approach to
                       improve its accuracy and customer ser­      automating the disability claims pro­
                       vice. Its Disability Redesign Plan was      cess. SSA is also designing a unified
                       issued in September 1994. With its          quality assessment process to measure
                       redesign plan, SSA hoped to achieve         the accuracy of decisionmaking
                       five goals that would improve the pro­      throughout the disability adjudication
                       cess. The plan originally included 83       process. We have been periodically
                       initiatives to be accomplished over 6       monitoring the electronic service deliv­
                       years.                                      ery aspects of eDib through various
                            In a 1996 report, GAO concluded        SSA steering committees and we will
                       that SSA’s plan was overly ambitious. At    assess the success of these initiatives as
                       that time, SSA had made little progress     they are implemented.
                       toward meeting its goals, could not             During the reporting period, we
                       show positive results, and faced diffi­     also conducted the following audit.
                       culty obtaining and keeping support of
                       some stakeholders. In response, SSA         Use of Sanctioned Medical Providers
                       issued a scaled-back redesign plan in       by State DDS
                       February 1997, which focused on eight       The objectives of this audit were to
                       key initiatives to be accomplished          determine whether: (1) State DDS pro­
                       within 9 years.                             cedures were adequate to ensure exclu­
                            SSA’s current plan entitled, Social    sion of sanctioned medical providers
                       Security and Supplemental Security          (SMP) from performing CEs for dis-
                       Income Disability Programs: Managing
SSA OFFICE OF THE INSPECTOR GENERAL                                                               23




ability determinations and (2) on a test     the Department of Health and Human
basis, SMPs are performing CEs.              Services’ Office of Inspector General
    To ensure the integrity of disability    (HHS-OIG) SMP list was the source of
determinations under the DI and SSI          the General Services Administration
programs, Federal regulations require        (GSA) list and the discrepancies we
SSA to establish effective procedures to     identified were most likely the result of
preclude the use of SMPs in performing       differences in the time periods covered
CEs. DDS adherence to these proce­           by the two lists. SSA also stated that
dures is critical to ensure that CEs used    creating a third list would result in
in evaluating claimants’ disabilities are    duplication of efforts.
obtained only from non-SMPs. SSA                  In our reply, we did not concur
needs to ensure that it has effective pro­   with SSA’s conclusion that discrepan­
cedures in place to prevent SMPs from        cies between the HHS-OIG list and the
performing CEs. To address these             GSA list were the result of timing dif­
issues, we recommended that SSA:             ferences. However, we recommended
                                             that if SSA does not create its own list,
1. Establish an SMP list to be used by
                                             SSA should periodically compare the
   DDSs that identifies all SMPs;
                                             HHS-OIG and GSA lists to ensure that
2. Instruct DDSs to:                         all SMPs appearing on the GSA list are
(a) review the SMP list for SMPs prac­       included on HHS-OIG’s list.
   ticing in communities near and
                                             Issue 3: Earnings Suspense
   across the borders of neighboring
   States;                                   File
(b) check treating physician status on       SSA’s Earnings Suspense File (ESF) rep­ Wages that are
   the SMP list when it performs CEs;        resents a major management challenge
                                             because it continues to grow in size    not credited to
(c) verify medical licenses of CE pro­
                                             each year. The ESF primarily consists
   viders with the State Medical Board;
                                             of wage items and the associated record the proper
(d) submit the names of new CE pro­          of wages employers submit to SSA that
   viders to the SSA regional office for     are put into suspense because the name account may
   the Federation of State Medical           and/or SSN does not match validation
   Boards credentials check; and             criteria within SSA’s systems.          affect an
                                                  One of the major concerns is that
                                             suspended wages may affect an individ­ individual’s
3. Provide DDSs with instructions for
   identifying SMPs employed by clin­
                                             ual’s eligibility for and the amount of
   ics and other medical businesses                                                  future benefits.
                                             retirement and disability benefits.
   where CEs are purchased.
                                             Another concern is the amount of
    SSA agreed with Recommendations          resources and the additional cost
2 and 3, but SSA did not agree with          required to match wage information to
Recommendation 1. SSA stated that            its proper account. Finally, the ESF is
24                                                                                                            FY 2001 SEMIANNUAL REPORT TO CONGRESS




The growth of      indicative of a nationwide problem of                                                                     have been the main causes of the ESF’s
                   potential fraud and misuse that not                                                                       growth and size.
      the ESF is   only affects SSA programs but tran­                                                                            SSA developed a key initiative con­
                   scends to other Federal entities, such as                                                                 taining an overall strategy and several
indicative of a    the Internal Revenue Service (IRS) and                                                                    individual projects designed to reduce
                   the Immigration and Naturalization                                                                        the ESF’s rate of growth and size. We
     nationwide    Service (INS).                                                                                            have already reported on SSA’s numer­
                        Although SSA correctly posts over                                                                    ous projects under the key initiative,
problem that       99 percent of all wages received to indi­                                                                 such as updated earnings system edit
                   vidual earners’accounts, the remaining                                                                    routines, letters to employers and
 affects many
                   wages with name and/or SSN inaccura-                                                                      employees to correct invalid informa­
        Federal    cies accumulate in the ESF. Between                                                                       tion, and various pilots. However, the
                   1937 and 1999, the ESF grew to about                                                                      changes called for in the key initiative
     programs.	    227 million reports of individual earn­                                                                   are long-term, and several factors, both
                   ings representing about $333 billion in                                                                   internal and external to SSA, hinder the
                   wages. Since 1990, the ESF has                                                                            efforts with the most potential to
                   increased from 3.5 million wage items                                                                     reduce the ESF’s size and growth.
                   and $9.5 billion in wages, to 8.4 mil-                                                                         Some of the internal factors
                   lion wage items and $41.6 billion in                                                                      include: (1) SSA has placed a higher
                   wages in 1999, as of this reporting                                                                       priority on other automated systems
                   period. Over the past 5 years, this has                                                                   development and (2) SSA has not
                   resulted in the ESF growing at an aver-                                                                   linked available information in its data-
                   age of 6.5 million wage items and                                                                         base to identify chronic “problem”
                   $28 billion, annually. Employer and                                                                       employers who continually submit
                   employee errors in reporting wages                                                                        annual wage reports with multiple
                                                                                                                             errors. SSA stated in its FY 2001

                                                        Status of the Earnings Suspense File
                                                        (Tax Years 1937–1999)
                   Suspended Wages (Billions)




                                                $45
                                                $40
                                                $35
                                                $30
                                                $25
                                                $20
                                                $15
                                                $10
                                                 $5
                                                 $0
                                                      1937
                                                             1940
                                                                    1943
                                                                           1946
                                                                                  1949
                                                                                         1952
                                                                                                1955
                                                                                                       1958
                                                                                                               1961
                                                                                                                      1964
                                                                                                                             1967
                                                                                                                                    1970
                                                                                                                                           1973
                                                                                                                                                  1976
                                                                                                                                                         1979
                                                                                                                                                                1982
                                                                                                                                                                       1985
                                                                                                                                                                              1988
                                                                                                                                                                                     1991
                                                                                                                                                                                            1994
                                                                                                                                                                                                   1997
SSA OFFICE OF THE INSPECTOR GENERAL                                                      25




Annual Performance Plan (APP) that it       to individuals as enumeration. The

still needs to improve coordination         enumeration area also includes issuing

among the more than 60 SSA data files       replacement cards to people with exist­

containing information about employ­        ing SSNs and verifying SSNs for 

ers, employees, and associated wages.       employers and other Federal agencies. 

     External factors include other Fed­    In FY 2000, SSA 

eral agencies with separate yet related     issued over 17 mil-

mandates. SSA will need to coordinate       lion original and

with the INS and the IRS to improve         replacement SSN

the quality of wage data provided by        cards. 

employers. For example, the INS moni­            The magni­
tors those industries that hire transient   tude of SSA’s enu­
employees who may not have proper           meration area and the importance
work authorizations whereas the IRS         placed on SSNs in today’s society pro­
can assess penalties on employers who       vides a tempting motive for many
continue to submit erroneous wage           unscrupulous individuals to fraudu­
information to the Government.              lently acquire an SSN and use it for ille­
     In addition to our ongoing audits      gal purposes. Given today’s
this reporting period, we also briefed      technological advances, motivated indi­
congressional staff and the Social Secu­    viduals can counterfeit official docu­
rity Advisory Board (SSAB) on the sta­      ments with surprising accuracy. To
tus of the ESF. In our presentation to      effectively combat these criminals and
congressional staff, we discussed the       reduce the occurrences of fraudulent
continued growth of the ESF, noted the      SSN attainment, SSA must employ
various processes SSA has in place to       effective front-end controls in its enu­
resolve invalid wage reports, and high-     meration process.
lighted our work to assist SSA with ESF          As noted by Congress and other
issues. In a separate briefing to the       Federal agencies, the SSN plays an inte­
SSAB, we again highlighted ESF trends       gral role in the commission of identity
and discussed our earlier recommenda­       fraud crimes. Unfortunately, once an
tions to SSA where we stressed inter-       SSN is assigned, regardless of whether
agency cooperation as well as steps SSA     it is later learned the SSN was fraudu­
could take to reduce the size and           lently obtained, the number can be
growth of the ESF.                          used as a “breeder document” to com­
                                            mit further crimes. Therefore, detect­
Issue 4: Enumeration                        ing fraudulent documents before SSNs
                                            are assigned is an essential step in
One of the key elements SSA employs
                                            reducing the number of identity fraud
to effectively administer the Nation’s
                                            crimes.
Social Security system is the SSN. SSA
                                                 We understand SSA has a difficult
refers to the process of assigning SSNs
                                            task in balancing customer service and
 26                                                      FY 2001 SEMIANNUAL REPORT TO CONGRESS




                    security. However, we believe that SSA       operated an identity fraud enterprise
                    has a duty to the American public to         and presented hundreds of false appli­
                    safeguard the integrity of SSNs. In          cations with counterfeit identity docu­
                    response to two previous reports we          ments to SSA for new or replacement
                    issued, SSA confirmed its strong com­        SSN cards. The group then sold these
                    mitment to eliminating opportunities         cards to third parties to facilitate other
                    for fraud within the enumeration pro­        criminal offenses.
                    cess. We commend many of SSA’s initi­            Our auditors also issued the follow­
                    atives to address these vulnerabilities.     ing audit related to the integrity of the
                    However, we continue to believe fur­         enumeration process this period.
                    ther action is necessary.
                                                                 Obstacles to Reducing SSN Misuse in
We are working           To promote further fraud preven­
                    tion activities, OI is working with SSA      the Agriculture Industry
      with SSA to   to develop systems applications to           The purpose of this audit was to assess
                    interrupt the enumeration process if         the potential for misuse of SSNs within
  implement a       fraud is detected and to further educate     the agriculture industry. SSN misuse
                    SSA staff to detect counterfeit docu­        often occurs when an individual pro­
      number of     ments. For example, based on recom­          vides an employer with an SSN that
                    mendations from prior OA reports, we         either has (1) never been issued or
  initiatives to    are working on a project with SSA to         (2) already been assigned to another
                    improve its Modernized Enumeration           person. Individuals use SSNs illegally
      detect and
                    System. Part of this project is to           for a variety of reasons, one of which is
         prevent    develop a procedure to detect fraud in       to obtain employment. SSA efforts to
                    the application process to identify par-     address SSN misuse require coordina­
  enumeration       ents who enumerate an improbable             tion with, and/or assistance from, other
                    number of children within a set time         Federal agencies such as the IRS and
           fraud.   frame. When this project is operational,     the INS.
                    SSA will stop the SSN card issuance               The extent of SSN misuse in the
                    process and refer the case to OIG for        agriculture industry cannot be precisely
                    investigation.                               quantified; however, based on our
                         OI is also working with SSA to          interviews with agricultural employers,
                    refine the Comprehensive Integrity           growers associations, and SSA senior
                    Review Program (CIRP) module that            staff, we believe it is widespread. For
                    identifies multiple SSN cards being          example, for Calendar Years 1996
                    sent to an address in a particular time      through 1998, the 20 agricultural
                    period. The CIRP referral process was        employers we reviewed in California
                    responsible for initiating an investiga­     and Florida submitted over 150,000
                    tion in Florida that identified over 225     wage items of which employees’ names
                    false identities that a group of conspira­   and/or SSNs did not match SSA
                    tors created over the past year. The         records. About 6 of every 10 wage items
                    investigation revealed that this group
SSA OFFICE OF THE INSPECTOR GENERAL                                                    27




                  100%
Average Wage Items





                      80%
    in Suspense





                      60%


                      40%


                      20%


                       0%
                                    Top 20 Agriculture Employers
submitted by these employers did not        reducing SSN misuse and growth of the
match SSA’s records.These items repre­      ESF remain. Resistance on the part of
sented almost $250 million in sus­          employers to participate in Enumera­
pended earnings over the 3-year period.     tion Verification System (EVS), and
     We also identified various types of    IRS’ reluctance to impose existing civil
reporting irregularities. During our        penalties against employers who submit
review period, 2 employers submitted        inaccurate wage reports, have hampered
over 7,000 SSNs that SSA had never          SSA’s ability to combat SSN misuse.
issued. Another employer submitted              Furthermore, privacy and disclo­
over 900 duplicate SSNs over the 3-         sure issues (that is, the sharing of ESF
year period. While we recognize there       information) have limited collabora­
are legitimate reasons why a worker’s       tive efforts between SSA and INS. In
name and SSN may not match SSA’s            addition, although SSA senior staff told
files, such as name changes, we believe     us that noncitizens without work
the magnitude of erroneous or incor­        authorization account for a significant
rect wage reporting is indicative of SSN    portion of suspended wage items, SSA’s
misuse. SSA senior staff acknowledged       key initiative for reducing the growth
the intentional misuse of SSNs by non-      and size of the ESF does not adequately
citizens not authorized to work is a        address this issue.
major contributor to the growth of the          SSN misuse within the agriculture
ESF.                                        industry represents millions of dollars
     To its credit, SSA recognizes the      in wages that cannot be associated with
impact SSN misuse has on its pro-           workers’ earnings records. Given the
grams, including the growth of the ESF,     large number of erroneous wage items
and has identified a number of initia­      submitted by agricultural employers,
tives to reduce such activity. Despite      we believe SSA should take preemptive
these efforts, significant obstacles to     and preventive measures to ensure the
            28                                                               FY 2001 SEMIANNUAL REPORT TO CONGRESS




                                         integrity of the SSN. Ultimately, the       already has the authority to penalize
                                         success of SSA’s efforts will depend on     employers who do not comply with
                                         the priority it places on prevention and    wage reporting requirements. SSA also
                                         detection of SSN misuse and how suc­        disagreed with Recommendation 4,
                                         cessful it is in obtaining assistance and   because SSA did not see the need to re-
                                         support from IRS and INS.                   evaluate its disclosure policies or seek
                                             In prior reports, we made recom­        legislation in this area. To address Rec­
                                         mendations to help reduce growth of         ommendation 5, SSA agreed a perfor­
                                         the ESF. In addition to the previously      mance measure may be appropriate and
                                         suggested initiatives, we recommended       plans to evaluate how it can incorporate
                                         that SSA:                                   such a measure. SSA did not address
                                                                                     Recommendation 3 concerning collab­
                                         1. Expedite implementation of the ini­
                                                                                     oration with INS.
                                            tiative to improve communication of
                                                                                          We continue to believe it is impor­
                                            name and/or SSN errors to employ­
                                                                                     tant that SSA seek legislative authority
                                            ers and employees;
                                                                                     to require employers who submit inac­
                                         2. Seek legislative authority to provide    curate wage reports to use EVS. By
                                            SSA the authority to require chronic     doing so, SSA could assist IRS in its
                                            problem employers to use EVS;            efforts to apply penalties by providing
                                                                                     them with evidence to show an
                                         3. Collaborate with INS to develop a
                                                                                     employer knew, or should have known,
                                            better understanding of the extent
                                                                                     its employees’ SSNs were incorrect.
                                            that immigration issues contribute to
                                                                                     Furthermore, until SSA requires these
                                            SSN misuse and growth of the ESF;
                                                                                     employers to use EVS and holds them
                                         4. Re-evaluate its application of current   accountable for their actions, we do not
                                            disclosure laws or seek legislative      believe employer wage reporting will
                                            authority to remove barriers that        significantly improve. We also continue
                                            would allow SSA to share informa­        to believe that SSA should collaborate
                                            tion regarding chronic problem           with INS to determine the extent to
                                            employers with INS; and                  which immigration issues contribute to
                                         5. Establish performance goals and          these problems.
                                            measures in accordance with the
                                                                                     Issue 5: Fraud Risk
                                            Government Performance and Results
                                            Act of 1993 (GPRA) that track SSA’s      As SSA’s payments to beneficiaries
The IG and the Deputy IG lead SSA’s         success in reducing the growth and
fight against fraud, waste, and abuse.
                                                                                     approaches half a trillion dollars annu­
                                            size of the ESF.                         ally, its exposure to fraud increases pro­
                                            In its response, SSA agreed with         portionately. Quite simply, many
                                         Recommendation 1 and has begun              unscrupulous individuals target SSA’s
                                         implementation. SSA disagreed with          disability and retirement programs to
                                         Recommendation 2 and stated that IRS        secure funds for their own personal
SSA OFFICE OF THE INSPECTOR GENERAL                                                                 29




gain. OIG employees actively fight           These types of cases expose two poten­
fraud in the SSI program, Old Age,           tial problems—why the checks were
Survivors, and Disability Insurance          issued after death of an individual and
(OASDI) programs, SSN integrity area,        who diverted the payments.
and employee fraud area through a            BIC “D” Pilot Project
wide range of activities.
    Due to space limitations, this issue     During this reporting period, we initi­
area focuses on a subset of the overall      ated a new national operation focusing
fraud universe, specifically, on pay­        on deceased auxiliary Social Security
ments to deceased individuals and            beneficiaries who are in current pay­
employee fraud. For information on           ment status, even though a date of
Identity and related SSN Misuse fraud,       death is posted to SSA’s records. The
please see Issue 7. Other OIG fraud          project is known as BIC “D,” signifying
prevention efforts are discussed in our      Beneficiary Identification Code “D” for
Significant Activities section of this       widows and widowers.
report.                                           This project originated when one of
                                             our investigators identified a possible
Payments Made to Deceased                    problem in SSA death records. Based
Individuals                                  on this information, our investigators
                                             and auditors conducted a pilot project
Our office, in conjunction with SSA,
                                             during which they identified all current
has taken aggressive action to stop erro­
                                             BIC “D” beneficiaries residing in the
neous payments to deceased individu­
                                             New England Region with a date of
als. This includes front-end detection
                                             death posted to the Agency’s Numident
of these improper payments, controls                                                    Our office focuses
                                             records. The Numident is a history file
to prevent such payments, and detailed
                                             that contains information on all valid
investigations to locate wrongdoers                                                     on front-end fraud
                                             SSN applications since 1936. Deaths
when the system breaks down. While
                                             are typically noted on the Numident        detection in order
SSA has many competing demands for
                                             file only. Overall, this pilot project
its finite resources, we believe that pay­
                                             resulted in the identification of 29       to ensure that SSA
ing the right person the right amount
                                             deceased individuals who were overpaid
of benefits is paramount. Payments
made to deceased individuals under-
                                             more than $700,000.                        pays the right
                                                  Based on the success of the pilot
mine public trust and confidence in
                                             project, OI launched a national opera­     person the right
SSA’s programs.
                                             tion. OI identified 2,934 subjects who
     OI aggressively pursues allegations                                                amount of
                                             were considered likely to be deceased
related to the diversion of benefit pay­
                                             and in current pay status based on a
ments intended for SSA beneficiaries.                                                   benefits.
                                             records match of SSA’s payment records
In addition, we have added concerns
                                             against its Numident files. Currently,
about the diversion of benefits after the
                                             our investigators are working with SSA
death of the intended benefit recipient.
         30                                                                  FY 2001 SEMIANNUAL REPORT TO CONGRESS




                                         field offices (FO) to verify the deaths,     was fraudulently receiving and convert­
                                         take administrative action, and open         ing for his own use his uncle’s Social
                                         investigations, if appropriate. If the       Security benefits, even though his uncle
                                         beneficiary is alive, our investigators      died March 26, 1979. From March
                                         will notify the local SSA FO that the        1979 through February 1997, the man
                                         Numident record is in error.                 accessed over $140,000 of his deceased
                                              As of March 31, 2001, OI opened         uncle’s benefits that were direct depos­
                                         748 cases and identified $2.8 million in     ited into a joint bank account. The
                                         fraud loss, $935,586 in scheduled/           man was ordered to pay full restitution
                                         actual recoveries, and $5.7 million in       of $143,693 to SSA.
                                         projected savings. It is anticipated that
                                         some of the more egregious cases will        Woman Makes Great Efforts to Con­
                                         be presented for criminal prosecution.       ceal Mother’s Death
                                         Numerous cases involve dormant bank          Based on a referral from the Milwaukie,
                                         accounts; however, there have been sep­      Oregon, SSA Office, our Seattle Field
                                         arate instances of actual recoveries         Division, with assistance from the U.S.
                                         exceeding $40,000 and $50,000 in             Postal Inspection Service, investigated a
                                         checks, many still in their original enve­   woman who failed to report her
Our agents work closely with SSA’s       lopes.                                       mother’s death. The woman continued
field office staff to develop evidence        To improve SSA’s computer systems       to collect her mother’s Social Security
in criminal cases.
                                         and correct errors, results are being        benefits and actively concealed the
                                         shared with SSA, at both the national        death from SSA by changing her
                                         and local levels. OA is also focusing on     mother’s mailing address and bank
                                         a file of 2,835 individuals, with a date     accounts. The $92,390 in benefits
                                         of death posted on their records, who        intended for the woman’s mother con­
                                         were considered likely to be alive and       tinued to be direct deposited after her
                                         whose records would therefore need           death in November 1982, through
                                         correction.                                  October 1996. She was incarcerated
                                         Other Payments to Deceased Indi­             and ordered to pay $81,624 restitution
                                         vidual Cases                                 to SSA.

                                         The following fraud cases highlight          Son Cashes Dead Mother’s Benefit
                                         where payments were made to deceased         Checks for Over 6 Years
                                         individuals for extended periods.            In this case, our Seattle Field Division
                                         Man Receives Dead Uncle’s Benefits           determined that a woman had died in
                                         for Over 18 Years                            December 1992. Her son, having
                                                                                      power of attorney, continued to receive
                                         Based on a referral from the SSA Office      and cash her monthly retirement
                                         in Glendale, Arizona, our Los Angeles        checks. He fraudulently cashed checks
                                         Field Division investigated a man who        totaling $87,604 from January 1993 to
SSA OFFICE OF THE INSPECTOR GENERAL                                                                31




June 2000. He was incarcerated and         spread abuse, the detection of employee
ordered to pay full restitution to SSA.    fraud is an investigative priority
                                           although it comprises the fewest num­
Dead Beneficiary Continues to              ber of allegations and cases.
Receive Payments for Over 10 Years
                                                One employee working alone or
Our Chicago Field Division initiated       with co-conspirators can corrupt SSA’s
an investigation in response to a news-    systems, cause financial losses to the
paper article that reported that a 45-     trust fund, coerce claimants and other
year-old man, best described as a her­     employees, and undermine the integ­        Employee fraud
mit, was carrying a knapsack contain­      rity of SSA’s programs. During this
ing over $150,000 in cash when he was      reporting period, we opened 54 new         remains an
arrested. The Akron, Ohio, Police          employee investigations, closed 55
Department discovered the man’s dead       employee investigations, arrested 7        investigative
parents in his home. His father had        employees, secured indictments of 5
                                           employees, and participated in judicial    priority even
been dead for over 10 years, and his
mother had been dead for approxi­          actions that resulted in the conviction
                                           of 10 SSA employees. The following
                                                                                      though it
mately 1 month.
     Our investigation established that    highlights two of these cases.             represents a small
the father was still receiving benefits,
                                           SSA Employee Involved in Conspiracy
and that his death was never reported.
                                           to Sell SSNs                               portion of our
Although the man was found not men-
tally capable of standing trial, a         Based on a referral from the Lawrence,     allegations and
$100,000 Federal Civil Judgment was        Massachusetts, Police Department, our
entered against his parents’ estate. We    Boston Field Division determined that      cases.
recovered $6,784 from a family bank        an SSA employee was involved in a
account and the City of Akron was          conspiracy to sell SSN cards. The inves­
ordered to pay the remainder owed to       tigation established that the employee
SSA from the $150,000 that was con­        fraudulently issued and sold approxi­
fiscated from the son. SSA also realized   mately 250 SSNs, to a co-conspirator.
$68,400 in program savings.                    The employee falsified information
                                           on applications for SSN cards and her
Employee Fraud                             co-conspirator paid her $50 in advance
Although most of SSA’s over 60,000         for each card ordered. The co-conspira­
employees are trustworthy and dedi­        tor then resold the cards for between
cated civil servants, we remain vigilant   $100 - $400. The employee was termi­
knowing that a few corrupt employees       nated from her position, sentenced to
can compromise the integrity of the        supervised release and ordered to pay a
Social Security system and undermine       special assessment fee of $2,100. She
the public’s confidence in SSA’s pro-      was also ordered to undergo mental
grams. Due to the potential for wide-
     32                                                 FY 2001 SEMIANNUAL REPORT TO CONGRESS




                     health treatment. Her co-conspirator       Issue 6: Government
                     was sentenced to home detention.           Performance and Results
                     Employee Submits Bogus Relocation          Act
                     Expenses
                                                                In accordance with GPRA, SSA has set
  We developed a
                     Based on information received from         forth its mission and strategic goals in
3-year GPRA Work     SSA’s Division of Travel Management,       its 5-year strategic plan, established
                     our Philadelphia Field Division investi­   yearly targets in its APPs, and reported
    Plan to review   gated two SSA employees involved in        on its performance in annual perfor­
                     submitting bogus relocation expenses.      mance reports. We conduct audits to
            SSA’s    One employee submitted bogus hotel         assess the reliability of SSA’s perfor­
                     receipts for lodging in Maryland for her   mance data and assess the development
implementation of    husband, who was living and working        of SSA’s performance plans, reports,
                     in North Carolina on the dates in ques­    indicators, and goals. To that end, we
           GPRA.     tion. This employee also submitted a       developed a 3-year GPRA Work Plan
                     relocation expenses totaling $11,500,      (see Appendix A) to review SSA’s imple­
                     which included a $5,000 penalty for a      mentation of GPRA.
                     lease termination. Another employee,            Since FY 1999, we issued reports
                     from OHA, provided a false affidavit       on the sources of the data used to mea­
                     corroborating the lease termination        sure SSA’s FY 1999 performance indi­
                     penalty.                                   cators and on SSA’s APP. We also issued
                          Our investigation found that a        reports on the reliability of the data
                     State Department employee who was          used to measure 21 of SSA’s perfor­
                     working in Saudi Arabia owned the          mance indicators. Our work concluded
                     property the employee allegedly leased.    that SSA has demonstrated a commit­
                     Our agents confirmed with the owner        ment to implement GPRA and has
                     that the employee had never leased the     improved the usefulness of its APP.
                     property. Subsequently, the OHA                 Our work also identified areas that
                     employee recanted her statement and        SSA can improve. For example, SSA
                     agreed to cooperate with our agents.       has not established performance indica­
                          The employee who submitted these      tors for all of its major management
                     bogus claims resigned from her posi­       challenges. We have also identified
                     tion and SSA withheld $2,803 from her      weaknesses in the data SSA uses to
                     retirement funds. At sentencing, the       measure some of its performance indi­
                     employee repaid $3,500 and was             cators, which affects SSA’s ability to
                     ordered to pay $6,297 to SSA.              reliably report on its performance.
                                                                     Our continued efforts in this area
                                                                will help identify and correct weak­
                                                                nesses in SSA’s performance data where
                                                                they exist. Our work to date has helped
SSA OFFICE OF THE INSPECTOR GENERAL                                                                           33




improve SSA’s APP and its ability to         the generation and accumulation of
reliably report on its performance. Our      the performance measure; and
future work will allow us to continue to
                                           5. Establish policies and procedures for
play a positive role and help improve
                                              the retention of performance mea­
SSA’s planning and performance moni­
                                              sure documentation.
toring.
     During this reporting period, we      Management Advisory Report: Per­
conducted the following reviews.           formance Measure for the Percent of
                                           the Continuing Disability Review
Performance Measure Review: Reli­          Multi-Year Plan Completed
ability of the Data Used to Measure
the Timeliness of Processing SSI Dis­      This review assessed the reliability of
ability Claims                             the data SSA used to measure the per­
                                           centage of the CDR multi-year Plan
In this review, we found the data used
                                           completed by the end of FY 1999. In
to measure the percent of SSI disability
                                           August 1996, SSA issued a 7-year plan
claims processed were reliable. How-
                                           for processing CDRs to meet the provi­
ever, a control weakness in the routing
                                           sions of Public Law 104-121. In
of claim data existed. In addition, SSA
                                           March 1998 and May 2000, SSA
used percentages instead of claim vol­
                                           updated the multi-year plan to reflect
ume when calculating cumulative
                                           changing conditions as a result of addi­
monthly statistics and lacked perfor­
                                           tional workloads, new legislation, new
mance measure documentation.
                                           data, and revised assessments. The new
    Accordingly, we recommended that
                                           plan estimates that 9.3 million CDRs
SSA take the following corrective mea­                                               OIG auditors assess the reliability
                                           will be completed between FYs 1996
sures, and are pleased to report that                                                of SSA’s performance data.
                                           and 2002.
SSA agreed to implement them:
                                                We were unable to audit this per­
1. Exclude duplicate claims from the       formance measure since SSA was
   calculation of the performance mea­     unable to provide complete baseline
   sure statistic;                         data used in preparing the plan. SSA
                                           staff told us that, in July 1997, the
2. Perform a validation test on both the
                                           Office of Disability prepared a data file
   input to and output from the Excep­
                                           representing everyone currently on the
   tion Control System to ensure that
                                           disability rolls who was eligible for a
   no claims are being excluded;
                                           CDR. This would include everyone
3. Use claim volume when combining         within the DI and SSI programs unless
   monthly statistics to calculate an      they were part of one of the exempted
   average for the cumulative perfor­      categories, such as disabled adult chil­
   mance measure;                          dren age 65 and over.
                                                This data file provided the baseline
4. Provide an adequate audit trail to
                                           information on individuals at the start
   document the processes involved in
      34                                                             FY 2001 SEMIANNUAL REPORT TO CONGRESS




                               of FY 1998 and was used in preparing           method for SSA to accurately record
                               the March 1998 CDR multi-year plan.            each U.S. worker’s earnings. Despite
                               However, when we requested a copy of           this narrowly drawn purpose, use of the
                               this file, we were told the data file had      SSN as a general identifier in record
                               expired after 2 years on SSA’s main-           systems has exploded. The SSN has
                               frame computer system. While SSA’s             been adopted for numerous other pur­
                               reported statistics indicate a high level      poses so that, today it is the single most
                               of CDR productivity, SSA was unable            widely used identifier for Federal and
                               to provide the information requested to        State governments as well as the private
                               test the reliability of the CDR multi-         sector.
                               year plan. GPRA requires agencies to               The expanded use of the SSN has
                               provide a basis for comparing actual           given rise to individuals acquiring and
                               program results with the established           using counterfeit SSNs and SSNs
                               performance goals. We recommended              belonging to other individuals for ille­
                               and SSA agreed that, in future periods,        gal purposes. Individuals use stolen and
                               SSA will:                                      counterfeit SSNs to obtain employ­
                                                                              ment, establish credit, and defraud Fed­
                               •	 Maintain records for at least 3 years
                                                                              eral programs, including the Social
                                  to support those individuals eligible
                                                                              Security and SSI programs.
                                  for CDRs as part of its GPRA goal
                                                                                  Individuals also misuse SSNs to
                                  so that a third party can fully assess
                                                                              conceal their true identity while com­
                                  the reliability of SSA’s reporting;
                                                                              mitting a variety of other crimes.
                                  and
                                                                              Often, these crimes affect innocent vic­
                               •	 Consider a new performance indi­            tims and cause tremendous losses to
                                  cator for the CDR backlog to                these individuals, as well as to the Gov­
                                  ensure that SSA has an annual mea­          ernment and private sector. For exam­
                                  sure consistent with CDR legisla­           ple, in May 1998, the GAO reported
                                  tive requirements that will remain          that 10 large banks lost $20 million
                                  meaningful beyond FY 2002.                  each as a result of credit card fraud in
                                                                              which SSNs were misused to activate
                               Issue 7: Identity Theft                        stolen credit cards.
                                                                                  The public expects that the Gov­
                                   One of the fastest growing trends is the
                                                                              ernment will prevent SSN misuse and
                                   misuse of SSNs to commit crimes, par­
                                                                              provide the necessary remedies for
                                   ticularly in the area of identity theft.
                                                                              those that are victimized. The public’s
                                   Identity theft is the deliberate use of
                                                                              growing concern is reflected in the large
                                   another person’s name and other identi­
The IG continues to fight against                                             number of allegations the SSA Fraud
the improper use and sale of SSNs.
                                   fying information to commit theft or
                                                                              Hotline receives. In the first half of
                                   fraud or to access confidential informa­
                                                                              FY 2001, we processed over 54,000
                                   tion about an individual. Originally,
                                                                              allegations, 53 percent of which
                                   the SSN’s sole purpose was to provide a
                                                                              involved the misuse of an SSN. We
SSA OFFICE OF THE INSPECTOR GENERAL                                                                      35




anticipate that this number will con­         Deterrence Act of 1998 (Public Law
tinue to grow unless SSA and Congress         105-318), we have taken a proactive
take firm action to regulate the uses of      approach in the investigation of these
SSNs.                                         crimes, and OI’s AMD has played a
     To this end, OCIG continues to           major role in this endeavor. Last year,
work closely with OI and OA to iden­          we entered into a Memorandum of
tify potential solutions to help fight this   Understanding with the Federal Trade
growing problem. OCIG continues to            Commission’s (FTC) Bureau of Con­
recommend the expansion of CMP                sumer Protection to refer SSN misuse
authorities to strengthen penalties for       and identity theft allegations received
the improper sale or misuse of SSNs.          by AMD to the FTC Identity Theft
While implementing laws to regulate           Data Clearinghouse, which is the
the use of the SSN is by no means an          FTC’s national database of identity
easy task, it becomes increasingly            theft complaints.
daunting with each passing day and                 Sharing these allegations will not
each new use (or misuse) to which             only improve our and the FTC’s ability
SSNs are subjected.                           to assist victims, but will also improve     We continuously
     Effective March 28, 2001, Public         the law enforcement community’s
Law 106-578, the Internet False Identi­       efforts in the detection of individuals      seek proactive
fication Prevention Act of 2000 (IFIPA)       committing identity theft crimes. Since
amends 18 U.S.C. 1028 to strengthen           our primary mission is to protect the        and innovative
Federal law regarding false identifica­       integrity of SSA’s trust fund, we focus
tion documents by addressing the              most of our investigative efforts on         ways to prevent
increased usage of the Internet and           identity theft cases that will result in a
computer technology in the creation           direct benefit to the trust fund.
                                                                                           SSN misuse.
and proliferation of false identification          However, 53 percent of all our
documents.                                    fraud allegations represent SSN misuse
     This legislation closes the loophole     cases that do not directly affect SSA’s
in Federal law that allowed the produc­       trust fund. Faced with this daunting sit­
tion and distribution of identification       uation, we continuously seek innova­
documents by anyone as long as they           tive ways to prevent SSN misuse and
were marked with an appropriate dis­          seek to create collaborative partnerships
claimer. The new provision provides           with other Federal, State, and local
that only those operating under the           entities to pool our resources to battle
authority of a governmental entity may        this epidemic. In order to maximize our
issue a document typically accepted for       investigative resources, our agents initi­
identification purposes. IFIPA will be        ated SSN Misuse Task Force pilot
an effective tool to pursue those who         projects. There are currently seven pilot
traffic in counterfeit SSN cards.             projects located in Baltimore, Mary-
     Furthermore, since the passage of        land; Seattle, Washington; Chicago,
the Identity Theft and Assumption             Illinois; Cleveland, Ohio; Detroit,
   36                                                     FY 2001 SEMIANNUAL REPORT TO CONGRESS




                     Michigan; Milwaukee, Wisconsin; and          identification documents to obtain SSA
                     St. Louis, Missouri.                         benefits under various aliases. During
We currently have         To facilitate these projects, our       searches, our investigators seized hun­
                     agents adopted lead roles in organizing      dreds of documents along with coun­
seven SSN Misuse     and coordinating activities with Fed­        terfeit identifications, SSN cards, and
                     eral, State and local law enforcement        counterfeit military documents.
  Task Force pilot   agencies. In addition, our Los Angeles            The evidence showed that the man
                     Field Division is participating in a West    used 33 or more aliases and was a
          projects   Coast identity theft project that is         5-time convicted felon. He was also a
                     underway through the Los Angeles             Federal fugitive for 17 years and was
        underway.    County Sheriff ’s Office. During the         serving 5 years on probation when he
                     first half of FY 2001, these Task Forces     was arrested.
                     opened 47 investigations and closed 89            The subject was a career criminal
                     other investigations, which resulted in      who, at various times, posed as a fire-
                     118 Federal and State convictions. The       fighter, traffic investigator, animal con­
                     following cases highlight both SSA pro-      trol officer, Central Intellegence Agency
                     gram-related cases and other SSN mis­        agent, and U.S. Marine Corps officer.
                     use investigations.                          At times, he portrayed himself as a
                                                                  highly decorated combat veteran and
                     Man Assumes Identity of Former               holder of the Navy Cross, three Purple
                     Roommate to Obtain Benefits
                                                                  Hearts, and as a former prisoner of war.
                     Our Cleveland, Ohio Identity Theft           He was incarcerated and ordered to pay
                     Task Force investigated a man who, for       $56,900 restitution to SSA.
                     approximately 20 years, assumed the
                                                                  Woman Collects SSI Payments under
                     identity of a former roommate. He            Three Identities
                     fraudulently used the man’s identity to
                     collect SSA disability benefits, Veterans    Our Chicago Field Division investi­
                     Affairs benefits, and Department of          gated a woman who was collecting SSI
                     Education benefits, as well as to enlist     payments under three identities. She
                     in the U.S. Army. He also received SSA       collected $35,362 in SSI payments
                     disability benefits in the name of his ex-   under her true identity, $44,378 under
                     roommate’s wife and three children.          a second identity and SSN, and $7,936
                     The man was incarcerated and ordered         under a third identity and SSN. The
                     to pay approximately $62,000 restitu­        woman was incarcerated and ordered to
                     tion to SSA.                                 pay $131,619 in restitution, of which,
                                                                  $87,676 was ordered to be paid to SSA.
                     SSI Recipient Uses Over 30 Aliases to
                     Conceal His Identity
                     Our Los Angeles Field Division investi­
                     gated a man using multiple SSNs and
SSA OFFICE OF THE INSPECTOR GENERAL                                                                              37




Man Receives SSI Payments for 11             ing four individuals who conspired to
Years under Three Different Names            fraudulently obtain residential mort­
                                             gages totaling approximately
Our Philadelphia Field Division con­
                                             $6,158,615.
ducted a joint investigation with the
                                                  The investigation established that
Punxsutawney Police Department of a
                                             the individuals recruited “straw” pur­
man who collected SSI payments under
                                             chasers and other unqualified buyers to
three identities. The Punxsutawney
                                             obtain mortgages on residential proper-
Police contacted the SSA Fraud Hotline
                                             ties at inflated prices. These individuals
following the man’s arrest for deposit­
                                             were provided with false and stolen
ing a bad check and advised us he was
                                             identities. Atlanta area loan processors
suspected of receiving SSI payments
                                             and bank officials participated in the
under three different names.
                                             scheme. The individuals were incarcer­
     The investigation established that
                                             ated and ordered to pay restitution
the man applied for and received SSI
                                             ranging in amounts from $554,309 to
payments under two false identities and
                                             $852,603.
his true name. He fraudulently received
SSI payments from 1988 through               Man Sells Counterfeit Immigration
1999. He was incarcerated and ordered        Documents for 8 Years
to pay restitution of $115,019 to SSA.
                                             Our Atlanta Field Division investigated
Task Force Cracks Counterfeit Check          a man who was the head of an organi­
Ring                                         zation comprised mostly of his immedi­
                                             ate family. For the past 8 years, the
As part of the St. Louis Field Division’s
                                             organization produced and sold coun­
Identity Theft Task Force, in conjunc­
                                             terfeit immigration work permits and
tion with the U.S. Attorney’s office for
                                             other false documents to illegal aliens.
the Eastern District of Missouri, we
                                             The organization also assisted illegal
conducted an investigation of a coun­
                                             aliens in obtaining genuine SSNs.
terfeit check ring. In this ring, individ­
                                                  The man and nine members of his
uals used real and stolen identities to
                                             family pleaded guilty. Six members of        Our agents frequently partner with
pass counterfeit payroll and cashier’s
                                             his family were deported from the            other Federal law enforcement enti­
checks. Seven co-conspirators were sen­
                                             United States and the remaining three        ties to conduct joint investigations.
tenced to various levels of incarceration
                                             were incarcerated. The man was incar­
and restitution, and the two ring lead­
                                             cerated and ordered to pay restitution
ers were imprisoned and ordered to
                                             to the Government of $325,028, of
each pay $237,406 restitution.
                                             which $300,596 was the value of three
Investigators Defeat Mortgage Loan           properties seized by the Government.
Fraud Scheme
Our Atlanta Field Division and the FBI
conducted a joint investigation involv­
       38                                                           FY 2001 SEMIANNUAL REPORT TO CONGRESS




                                 Joint Investigation of Financial           Issue 8: Representative
                                 Crimes Results in over $1 Million
                                                                            Payee
                                 Restitution
                                                                            SSA provides benefits to the most vul­
                                 In a joint investigation with the Dela­
                                                                            nerable members of society—the
                                 ware Financial Crimes Task Force, our
                                                                            young, the elderly, and the disabled.
                                 Philadelphia Field Division conducted
                                                                            Congress granted SSA the authority to
                                 an investigation involving individuals
                                                                            appoint representative payees for those
                                 conspiring to defraud several Federally
                                                                            beneficiaries judged incapable of man-
                                 insured financial institutions. The
                                 investigation established that the indi­   aging or directing the management of
                                                                            their benefits.
                                 viduals conspired in opening fraudu­
                                                                                 Representative payees (organiza­
                                 lent credit card and other bank
                                                                            tions or individuals) receive and man-
                                 accounts, soliciting bank employees to
                                                                            age payments on behalf of these
                                 take over accounts, making fraudulent
                                                                            beneficiaries. Most representative pay­
We investigate representative    wire transfers, obtaining fraudulent
                                                                            ees are parents or family members of
payees who take advantage of     cash advances, and negotiating fraudu­
some of the most vulnerable of                                              beneficiaries. Given the risk of repre­
                                 lent checks. Fourteen individuals were
SSA’s customers.                                                            sentative payee misuse and the vulnera­
                                 arrested for this scheme.
                                     Three of the major co-conspirators     bility of the beneficiaries, it is
                                 pleaded guilty to bank fraud, and two      imperative that SSA has appropriate
                                 have been sentenced and ordered to pay     safeguards to ensure representative pay­
                                 more than $1 million in restitution to     ees meet their responsibilities to use the
                                 the victim banks. The other 10 individ­    funds for the beneficiaries’ benefit.
                                                                                 Since 1996, our audits have identi­
                                 uals pleaded guilty to conspiracy to
                                                                            fied numerous weaknesses in the selec­
                                 commit bank fraud or identity theft.
                                     Seven of the 10 were sentenced and     tion, monitoring, and accountability of
                                                                            representative payees, and our investi­
                                 ordered to pay restitution ranging from
                                 $24,000 to $58,000. One of the seven       gations have provided examples of rep­
                                 individuals, a former bank employee,       resentative payees who have taken
                                 was incarcerated and ordered to pay        advantage of vulnerable beneficiaries.
                                                                                 To address these and other weak­
                                 joint restitution of $818,463 with one
                                                                            nesses, SSA has developed an expanded
                                 of the major co-conspirators. The
                                                                            on-site review program of certain repre­
                                 remaining individuals received sen­
                                                                            sentative payees. This program consists
                                 tences ranging from 1-year probation
                                                                            of:
                                 to 6 months’ incarceration and restitu­
                                 tion ranging from $23,805 to $57,871.
                                                                                6-Month Site Visits—SSA will
                                                                            conduct an initial site visit 6 months
                                                                            after a fee-for-service payee is
                                                                            appointed.
SSA OFFICE OF THE INSPECTOR GENERAL                                                                      39




     Triennial On-site Reviews—SSA           and disbursements; vulnerabilities in        We investigate 

will conduct on-site reviews of all of the   the safeguarding of beneficiary pay­

approximate 855 fee-for-service repre­       ments; poor monitoring and reporting         allegations of 

sentative payees, all volume organiza­       to SSA of changes in beneficiary cir­

tional payees (over 100 beneficiaries),      cumstances; and inappropriate han-           fraud against 

and all individual payees serving 20 or      dling of beneficiary conserved funds. 

more beneficiaries.                          We expect to issue the six financial-        individual 

     Random Reviews—SSA will con-            related audit reports by the end of
duct reviews of a random sample of 30        FY 2001.
                                    representative

percent of all volume organizational              In addition to our audit work, rep­
payees and fee-for-service payees.           resentative payee fraud continues to be
                                                                                          payees as well
     Quick Response Checks—SSA               a major investigative focus. We respond      as large-scale
will conduct reviews of organizational       to allegations involving all types of rep­
payees as needed in response to certain      resentative payees, ranging from indi-       organizations.
“trigger” events, such as third-party        viduals to large-scale organizations
reports of misuse, complaints from ven­      representing hundreds of individuals.
dors of failure to receive payment, and           Our most significant case this
failure to complete the annual account-      reporting period involved an investiga­
ability report.                              tion by our Seattle Field Division of a
     To address recent concerns              woman that operated a representative
expressed by Congress, we are conduct­       payee service, Consolidated Payee Ser­
ing six financial-related audits of repre­   vices (CPS), from January 1998 to
sentative payees. This work represents a     March 1999. During that time, CPS
significant departure from our tradi­        was the representative payee for 98 ben­
tional auditing efforts in that we con­      eficiaries receiving Social Security and
ducted audits of the representative          SSI payments. While acting as repre­
payees themselves rather than perform­       sentative payee, the woman embezzled
ing audits of SSA’s management of the        and converted for her own use $85,529
program. Our objectives are to deter-        of the individuals’ benefits. She was
mine whether: (1) representative payees      incarcerated and ordered to pay
had effective safeguards over the receipt    $85,529 restitution to her 98 victims.
and disbursement of OASDI benefits,
and (2) OASDI benefits were used and         Issue 9: Service to the
accounted for in accordance with SSA         Public
policies and procedures.
     Our preliminary audit results indi­     SSA is faced with increased workloads
cate representative payees do not always     brought about by an aging baby-boom
meet their responsibilities to the benefi­   generation, a projected retirement wave
ciaries they serve. We identified defi­      of over half of its workforce, and tech­
ciencies with the financial management       nological advances that affect both cus­
of, and accounting for, benefit receipts     tomer expectations and SSA’s ability to
  40                                                    FY 2001 SEMIANNUAL REPORT TO CONGRESS




                  meet them. To help meet these future           aging and work-laden workforce. SSA’s
                  service delivery challenges, SSA devel­        workloads will continue to increase as baby
                  oped a 2010 Vision that outlines its           boomers reach retirement age, challenging
                  strategy over the next 10 years.               SSA to find ways to keep pace.
We believe that        Specific principles and enablers               The SSAB previously reported that
                  underpin the Vision’s actions for              the result of the above factors has been,
  SSA needs to    enhanced service delivery. Examples of         and will continue to be, uneven service.
                  these include giving customers                 Persons filing for retirement or survi­
       balance    expanded options for service in terms          vors benefits are likely to be satisfied
                  of time, place, mode of access, and lan­       with the service provided. However,
   stewardship    guage. Employees need to have the lat­         individuals with complicated cases,
                  est technological enhancements for             such as those with disability or SSI
 with customer    fully electronic, paperless work process-      claims, may encounter problems. As
                  ing, access to electronic records, and         workloads increase, the dimensions of
       service.   operational flexibility.                       SSA’s problems can be expected to grow
                       The Vision also highlights the need       if left unattended and the public may
                  to forge and maintain both internal and        be faced with crowded reception areas,
                  external alliances; to be an employer of       long wait times, inadequate telephone
                  choice; and to emphasize leadership            service, and reduced quality of work.
                  that is proactive, entrepreneurial, and             To meet future customer demands,
                  customer-centered.                             SSA needs to maintain existing service
                       While these are laudable goals, SSA       levels while exploring new and innova­
                  must be vigilant in balancing service to       tive ways to address service delivery
                  the public with stewardship. We                problems. To accomplish this, SSA
                  strongly believe that to fulfill its respon­   must recruit and retain a cadre of
                  sibilities, SSA must realign more              highly skilled employees. However,
                  resources to stewardship in light of all       even at current staffing levels, SSA finds
                  the management challenges and the              it difficult to maintain an acceptable
                  demands on SSA’s limited resources             level of customer service, especially in
                  and staff. We believe SSA should place         its most complicated workloads. To
                  a greater emphasis on effective and            make matters worse, SSA is facing an
                  appropriate stewardship. While we rec­         unusual wave of management and staff
                  ognize that customer service is of criti­      retirements.
                  cal importance, it should not be at the             Additionally, the Agency may find
                  sacrifice of sound stewardship.                it difficult to replace employee losses as
                       SSA recognizes there are a number         the Nation’s labor force of people
                  of significant service delivery problems       between the ages of 25 and 44 is
                  that need attention. One is the com­           expected to shrink. If predicted short-
                  plexity of the programs SSA adminis­           ages in human capital are realized, SSA
                  ters. Another is the steady reduction in       may not be able to strengthen and revi­
                  staffing since 1982, resulting in an           talize future employee ranks as its
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                41




workloads continue to grow in volume        and attained age 18 on or after
and complexity.                             August 23, 1996.
    Increasing workloads coupled with           Of these 150 cases, SSA did not
human capital shortages will further        complete 5 required age 18 redetermi­
stress SSA’s ability to provide quality     nations. Projecting the results of our
service to the public. Given these fac­     sample to the population, we estimated
tors, human capital management needs        that at least 2,000 required age 18 rede­
to be an integral part of SSA’s strategic   terminations had not been completed.
plan, and operational efforts must be       Our review of 150 cases found age 18
implemented to make the strategic           redeterminations were:
vision a reality.
                                            •   Completed in 122 cases
    Given the enormous size of SSA’s
programs, the billions of dollars at        •   Not completed in 5 cases; and
stake, and the millions of citizens who
                                            •	 Not required or not yet due in 23
rely on SSA, we must ensure that pur­
                                               cases.
suing quick service is not at the expense
of accuracy. The service challenge is to         Our review found that, overall, SSA
recognize that, while SSA’s service         was conducting eligibility redetermina­
efforts are among the best in the world,    tions in a timely manner, using adult
the enormous pressure of speed versus       eligibility criteria for recipients attain­
accuracy increasingly threatens SSA’s       ing age 18. However, we noted that
resource levels and poses a threat to the   SSA could improve performance in this
trust the public has in our ability to      area to ensure that all reviews released    Our auditors frequently review
“pay the right amount, to the right per-    to FOs are completed timely. SSA            SSA’s processes to ensure that it can
son, at the right time.”                    agreed with our recommendation to           meet its customer service demands.
    During this reporting period, we        periodically check to ensure that fol­
conducted the following reviews related     low-up alerts on age 18 cases are
to this area.                               resolved.

Redeterminations for SSI Recipients         Review of SSA’s Organizational
Attaining Age 18                            Capacity to Monitor and Plan for
                                            Customer Service Initiatives
The objective of this audit was to deter-
mine whether SSA was conducting eli­        As a result of a request from the Chair-
gibility redeterminations in a timely       man of the Senate Special Committee
manner using adult eligibility criteria     on Aging, we performed this audit to
for recipients attaining age 18. Our        assess the effectiveness of the Market
audit consisted of a detailed review of     Measurement Program (MMP) and to
150 randomly selected cases from a          identify any other efforts to improve
population of 155,860 individuals who       customer service that should be imple­
became eligible for benefits as children    mented.
42                                       FY 2001 SEMIANNUAL REPORT TO CONGRESS




          SSA has historically collected infor­     addressed;
     mation on its customers’ perception of
                                                  5. Evaluate whether, and the extent to
     the service it provides. Over the last few
                                                     which, the Talking and Listening to
     years, these efforts were criticized as
                                                     Customers (TLC) system may dupli­
     being fragmented, untimely, and unco­
                                                     cate comment cards;
     ordinated. In 1996, SSA contracted
     with the Pacific Consulting Group            6. Coordinate regional and local cus­
     (PCG) to assess SSA’s market research           tomer service studies and the central
     program. PCG recommended a com­                 analysis of their results to permit
     prehensive program of data collection           identification of systemic issues;
     and reporting mechanisms that would          7. Accelerate implementation of MMP
     provide an integrated market measure­           phases to attain scheduled data col­
     ment system.                                    lections and analysis and closely
          The Commissioner endorsed this
                                                     monitor implementation of MMP
     approach and approved the MMP in
                                                     phases to limit any further delays;
     February 1998. MMP encompasses a
                                                     and
     variety of data collection activities that
     are intended to provide SSA with the         8. Conduct a more in-depth analysis of
     information it needs to fully under-            operational data and customer satis­
     stand the expectations and level of satis­      faction information to ensure that
     faction of its total market—customers,          customer expectations, operational
     employees, and stakeholders.                    data, Agency performance and 2010
          To ensure the most effective use of        Vision goals are consistent.
     customer service information col­                SSA agreed with all but two of our
     lected, we recommended that SSA:             recommendations. SSA did not agree
     1. Target specific groups of recipients      with Recommendation 2, because it
        receiving SSA notices through focus       believes that local managers should
        groups and interaction tracking;          have the discretion to use comment
                                                  cards in the most efficient and effective
     2. Encourage the uniform use of cus­
                                                  manner they perceive, since the card is
        tomer comment cards by FOs,
                                                  designed to inform managers about
        teleservice centers, and hearings
                                                  their local service. SSA also disagreed
        offices;
                                                  with Recommendation 4, stating the
     3. Revise the customer comment card          comment card is designed to monitor
        for FOs to determine whether the          service at the local level, and that the
        customer had an appointment;              various MMP data collection activities,
                                                  as well as the TLC system, will provide
     4. Centralize and analyze customer
                                                  centralized information to allow identi­
        feedback received through comment
                                                  fication of service delivery issues at the
        cards to identify any systemic service
                                                  national level.
        delivery issues that may need to be
SSA OFFICE OF THE INSPECTOR GENERAL                                                                            43




    We are pleased that SSA agreed              After auditing SSA’s FY 2000
with most of our recommendations and        Financial Statements, a public account­
has, or plans to, implement most of         ing firm noted that SSA needs to fur­
them. We believe that activity con­         ther strengthen controls to protect its
ducted to date under the MMP and in         information. SSA has made notable
the pilot TLC sites, along with action      progress in addressing the information
in response to our recommendations,         protection issues raised in prior years.
will help ensure that SSA is effectively    Despite these accomplishments, SSA’s
and efficiently collecting, analyzing,      systems environment remains threat­         OIG computer experts work to
and using data on customer expectation      ened by security and integrity exposures    prevent unauthorized access to
                                                                                        confidential information and
and satisfaction. However, as we have       impacting key elements of its distrib­      critical systems.
previously reported, we believe the         uted systems and networks.
comment card can be an inexpensive              Our auditors also conducted the
and effective tool at both the local and    following review involving systems con­
national levels to obtain customer satis­   trols and processes critical to ensuring
faction information and to identify sys­    that SSA issues payments accurately
temic service delivery issues.              and to the right individuals.
    Additionally, until the TLC is fully
implemented, SSA lacks a centralized        Payments to Young Spouses and Sur­
customer complaint system and mecha­        viving Spouses Without Child In-
                                            Care
nism to analyze all complaints. The
centralized analysis of comment cards       The objective of this audit was to deter-
could fill this void until the TLC is       mine whether SSA paid benefits to
fully operational.                          young or surviving spouses who no
                                            longer have a child in-care under age 16
Issue 10: Systems Security                  or a disabled child in-care. The Social
and Controls (Program and                   Security Act provides benefits to
Administrative                              spouses under age 62 (young spouses)
Applications)                               who have an eligible child in their care
                                            who is either under age 16 or disabled.
The importance of computer system           It also provides benefits to surviving
security increases as opportunities for     spouses if they have an eligible child in
users to disrupt critical systems, modify   their care that is either under age 16 or
key processes, and read or copy sensi­      disabled.
tive data increases. Strong systems secu­        SSA relies on its automated system
rity and controls are needed to prevent     to identify and stop benefit payments
access to confidential information and      to young or surviving spouses when
critical systems and the fraudulent use     these individuals no longer have a child
of SSA data.                                in-care under age 16 or a disabled child
                                            in-care. This system uses current infor-
44                                        FY 2001 SEMIANNUAL REPORT TO CONGRESS




     mation from SSA’s beneficiary records        determined 147 individuals received
     to monitor entitlement to benefits and       $292,125 in overpayments that should
     process termination actions. In most         have been recovered by SSA. The
     cases, these actions are processed auto­     remaining 210 individuals received
     matically.                                   $114,069 in overpayments that should
          However, for complex cases, the         have been offset against underpayments
     automated system generates alerts and        due other individuals in the same fam­
     exceptions rather than stopping bene­        ily.
     fits. Actions that are partially processed        We recommended that SSA:
     by SSA’s automated system result in
                                                  •	 Modify its system to automatically
     alerts while those that cannot be pro­
                                                     stop benefits to young and surviv­
     cessed at all result in exceptions. Both
                                                     ing spouses without a child in-care
     alerts and exceptions require manual
                                                     under age 16 or a disabled child in-
     processing to complete the actions.
                                                     care;
          Our audit disclosed that, as of
     August 1999, 357 (91.1 percent) of our       •	 Generate alerts for PC employees to
     targeted population of 392 young                review complex cases, recalculate
     spouses and surviving spouses did not           benefit amounts, and adjust pay­
     have a child in-care under age 16 or a          ments due other individuals in the
     disabled child in-care. These individu­         same family, if necessary;
     als were not entitled to Social Security     •	 Evaluate the feasibility of automat­
     benefits under the Act. We determined           ing benefit increases for other indi­
     that SSA had improperly paid                    viduals in the same family when the
     $406,194 in benefits to these individu­         benefits for young spouses and sur­
     als. The remaining 35 individuals (8.9          viving spouses without a child in-
     percent) represented young spouses and          care are terminated; and
     surviving spouses who should not have
     been included in our population              •	 For the 147 cases identified by our
     because their beneficiary status had            audit, take corrective action to
     been misclassified. These individuals           ensure that overpayments are estab­
     were entitled to benefits because they          lished and collection activities are
     were disabled, had a child in-care, or          initiated.
     were entitled to benefits for some other         In its response, SSA generally
     reason.                                      agreed with all of our recommenda­
          The 357 young and surviving             tions.
     spouses improperly received benefits
     because SSA’s system did not terminate
     benefits for these individuals, and pro­
     cessing center (PC) employees did not
     manually process the termination
     actions timely. As of August 2000, we
SSA OFFICE OF THE INSPECTOR GENERAL                                                                   45




F    inancial Audits

The Chief Financial Officers Act of 1990
(Public Law 101-576), as amended,
requires the IG or an independent
external auditor, as determined by the
                                                 PwC’s audit report identified one
                                            reportable condition in SSA’s internal
                                            control. The control weakness identi­
                                            fied was: SSA Needs to Further
IG, to audit SSA’s financial statements     Strengthen Controls to Protect its
in accordance with GAO’s Government         Information. SSA generally agreed with
Auditing Standards. In addition to this     this finding and PwC’s recommenda­
requirement, we also conduct other          tions.
financial-related audits of SSA’s opera­         In FY 1999, PwC reported two
tions and review the quality of single      instances of noncompliance with laws
audits conducted by State auditors and      and regulations related to information
public accounting firms. The following      protection and periodic continuing dis­
summarizes our audit work for this          ability reviews for title II beneficiaries.
reporting period.                           Additionally, PwC reported the two
                                            conditions as instances of substantial
Audit of the SSA’s FY 2000                  noncompliance with the Federal Finan­         SSA’s FY 2000
Financial Statements                        cial Management Improvement Act of
                                            1996 (FFMIA). In FY 2000, PwC                 financial
PricewaterhouseCoopers LLP (PwC)            reported, “The results of our tests of
performed SSA’s FY 2000 financial           compliance disclosed no instances of          statements
statement audit. PwC’s audit report was     noncompliance with laws and regula­
transmitted to the Commissioner on          tions that are required to be reported        received an
December 1, 2000. The report                under Government Auditing Stan­
included an unqualified opinion on          dards or Office of Management and
                                                                                          unqualified
SSA’s FY 2000 financial statements. In      Budget (OMB) Bulletin No. 01-02.”
PwC’s opinion, “...the consolidated                                                       opinion.
                                                 Nonetheless, with respect to the
financial statements audited by             FFMIA, the OIG, in consultation with
us...present fairly, in all material        GAO, believes that instances of sub­
respects, the financial position of SSA     stantial noncompliance remain due to
at September 30, 2000 and 1999, and         the continuing reportable condition
its consolidated net cost, changes in net   that SSA has not sufficiently strength­
position, budgetary resources and rec­      ened its controls to protect its informa­
onciliation of net cost to budgetary        tion. Computer security is critical to
resources for the fiscal years then ended   ensure the protection of Agency assets
in conformity with accounting princi­       and data. A key component of the
ples generally accepted in the United       internal control weakness is SSA’s need
States of America.”                         for an improved information security
                                            framework.
46                                                          FY 2001 SEMIANNUAL REPORT TO CONGRESS




                            The lack of such a framework            Single Audits
                        means that important security pro-
                        gram controls may not be functioning             On July 5, 1996, the President
                        as management intended. The result is       signed the Single Audit Act Amendments
                        that SSA’s electronic environment           of 1996, which extended the statutory
                        could be compromised.                       audit requirement to nonprofit organi­
                            FFMIA requires Agency financial         zations and revised various provisions
                        management systems to substantially         of the 1984 Single Audit Act including
                        comply with Federal financial manage­       raising the dollar threshold for requir­
                        ment systems requirements. We believe       ing a single audit to $300,000 in Fed­
                        the internal control weaknesses related     eral awards expended.
                        to information protection significantly          As a result, OMB rescinded Circu­
                        depart from certain requirements of         lar A-128 and issued revised Circular
                        OMB Circular A-130, Management of           A-133, Audits of States, Local Govern­
                        Federal Information Resources and, as       ments and Non-Profit Organizations,
                        such, constitute instances of substantial   to implement the amendments. We
                        non-compliance with Federal financial       review the quality of these audits, assess
                        management systems requirements             the adequacy of the entity’s manage­
                        under FFMIA.                                ment of Federal funds, and report sin­
                                                                    gle audit findings to SSA for audit
                                                                    resolution. The following table summa­
                                                                    rizes the single audits issued in the first
                                                                    half of FY 2001.

                                    Single Audits Issued

                                    FY 2001 Year-to-Date

     State/DDS/Agency Audited          FY Ended          Findings   Recommendations           Questioned Costs

 Alabama                          September 30, 1999         4               4               Not Yet Determined

 District of Columbia’s           September 30, 1997         1               2               Not Yet Determined
 Department of Human Services

 District of Columbia’s           September 30, 1998         2               3               Not Yet Determined
 Department of Human Services

 Michigan Family                  September 30, 1996         1               2                    $1,800,000
 Independence Agency

 Mississippi                         June 30, 1999           1               3               Not Yet Determined

 New Mexico                          June 30, 1999           2               3                        $0

 New York                           March 31, 1999           8               4                     $475,785
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                                       47




R      esolving Audit Recommendations
Reports with Questioned Costs for the Reporting Period
October 1, 2000 through March 31, 2001
The following chart summarizes SSA’s responses to OIG’s recommendations for the recov­
ery or redirection of questioned and unsupported costs. This information is provided in
accordance with the Supplemental Appropriations and Recission Act of 1980 (Public Law 96-
304) and the Inspector General Act of 1978, as amended.

                                                                      Number               Value                    Value
                                                                                         Questioned              Unsupported

 A. For which no management decision had been                             5a            $81,148,807                         $0
 made by the commencement of the reporting
 period

 B. Which were issued during the reporting period                        9b              $2,989,661                  $99,727

                        Subtotal (A+B)                                   14             $84,138,468                  $99,727

 Less:

 C. For which a management decision was made                              6c            $79,359,017                  $99,727
 during the reporting period

            i. Dollar value of disallowed costs                           6d            $79,359,017                  $99,727

            ii. Dollar value of costs not disallowed                       0                        $0                      $0

 D. For which no management decision had been                             9e             $4,779,451                         $0
 made by the end of the reporting period

  a.Audit of Administrative Costs Claimed for FY 1994 by the New Jersey Department of Labor (A-02-95-00002, 6/20/97); Waivers
Granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Costs Claimed by American Institutes for Research on
the SSA's Contract Number 600-97-32018 (A-15-00-20034, 8/14/00); Identification of Fugitives Receiving Supplemental Security In-
come (SSI) Payments (A-01-98-61013, 8/28/00); Single Audit of the State of Mississippi for the FY Ended June 30, 1998 (A-77-00-
00006, 8/31/00).
 b.See Reports with Questioned Costs on page 50 of this report.
 c.A management decision was made for only a portion of the questioned costs recommended in the report, Audit of the Administrative
Costs Claimed by the District of Columbia Disability Determination Division (DDD) (A-13-98-91003, 2/8/01).
  d.Identification of Fugitives Receiving SSI Payments (A-01-98-61013, 8/28/00); Single Audit of the Michigan Family Independence
Agency for the 2-Year Period Ending September 30, 1996 (A-77-01-00001, 1/12/01); Audit of the Administrative Costs Claimed by the
District of Columbia DDD (A-13-98-91003, 2/8/01); Audit of the Administrative Costs Claimed by the Oregon Disability Determina­
tion Services (A-15-99-52021, 2/26/01); Single Audit of the State of New York for the FY Ended March 31, 1999 (A-77-01-00007, 3/
29/01); Payments to Young Spouses and Surviving Spouses Without Child In-Care (A-09-00-10002, 3/30/01).
  e.Audit of Administrative Costs Claimed for FY 1994 by the New Jersey Department of Labor (A-02-95-00002, 6/20/97); Waivers
Granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Costs Claimed by American Institutes for Research on
the SSA's Contract Number 600-97-32018 (A-15-00-20034, 8/14/00); Single Audit of the State of Mississippi for the FY Ended June 30,
1998 (A-77-00-00006, 8/31/00); Single Audit of the District of Columbia's Department of Human Services for the FY Ended September
30, 1997 (A-77-01-00002, 2/5/01); Single Audit of the District of Columbia's Department of Human Services for the FY Ended Septem­
ber 30, 1998 (A-77-01-00003, 2/5/01); Audit of the Administrative Costs Claimed by the District of Columbia DDD (A-13-98-91003,
2/8/01); Single Audit of the State of Mississippi for the FY Ended June 30, 1999 (A-77-01-00004, 3/29/01); Single Audit of the State of
Alabama for the FY Ended September 30, 1999 (A-77-01-00006, 3/29/01).
48                                                                      FY 2001 SEMIANNUAL REPORT TO CONGRESS




                       Reports with Recommendations that Funds be Put to
                       Better Use for the Reporting Period October 1, 2000
                       through March 31, 2001
                       The following chart summarizes SSA’s responses to our recommendations that funds be put
                       to better use through cost avoidances, budget savings, etc.

                                                                                               Number              Dollar Value
      A. For which no management decision had been made by the                                       2a               $77,064,610
      commencement of the reporting period
      B. Which were issued during the reporting period                                               1b            $125,000,000c

                                      Subtotal (A+B)                                                  3             $202,064,610

      C. For which a management decision was made during the
      reporting period
                 i. Dollar value of recommendations that were agreed to
                 by management

                          (a) Based on proposed management action                                     0                           $0

                          (b) Based on proposed legislative action                                   1d            $164,646,884e

                                       Subtotal (a+b)                                                 1             $164,646,884

                 ii. Dollar value of costs that were not agreed to by                                 0                           $0
                 management

                                       Subtotal (i+ii)                                                1             $164,646,884

      D. For which no management decision had been made by the end                                   2f               $37,417,726
      of the reporting period

      a.Waivers granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Old Age, Survivors and Disability Insurance
     (OASDI) Benefits Paid to Fugitives (A-01-00-10014, 8/29/00).
      b.See Reports with Funds Put to Better Use on page 50 of this report.
       c.This dollar amount has been modified because of developments that occurred after the issuance of our reports entitled, Effectiveness
     of Obtaining Records to Identify Prisoners (A-01-94-02004, 5/10/96) and Effectiveness of SSA’s Procedures to Process Prisoner Infor­
     mation, Suspend Payments and Collect Overpayments (A-01-96-61083, 6/24/97). SSA’s Chief Actuary estimated a cost avoidance of
     $125 million to be realized semiannually from 1995 to 2001.
      d.OASDI Benefits Paid to Fugitives (A-01-00-10014, 8/29/00).
      e.See footnote c.
      f. Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Single Audit of the State of Alabama for the
     FY Ended September 30, 1999 (A-77-01-00006, 3/29/01).
SSA OFFICE OF THE INSPECTOR GENERAL                                                                            49




 R         eports Issued from October 1, 2000
           through March 31, 2001
        Reports Issued—Reports with Nonmonetary Findings
   Date                                       Title of Report                                  Report Number
  Issued

             Performance Measure Review: Reliability of the Data Used to Measure the
  12/01/00                                                                                     A-02-99-11002
             Timeliness of Processing Supplemental Security Income Disability Claims

  12/01/00   Fiscal Year 2000 Financial Statements Audit                                       A-15-00-10041

  12/20/00   Redeterminations for Supplemental Security Income Recipients Attaining Age 18     A-01-00-10013

  01/22/01   Obstacles to Reducing Social Security Number Misuse in the Agriculture Industry   A-08-99-41004

              The Social Security Administration’s Internet Data Collection Activities
  02/14/01                                                                                     A-14-01-21027
             (Congressional Report)

             Payments Due to the District of Columbia Water and Sewage Authority for Social
  02/14/01                                                                                     A-15-01-21026
             Security Administration Occupied Buildings (Congressional Report)

             Management Advisory Report: Performance Measure for the Percent of the
  02/23/01                                                                                     A-01-00-10011
             Continuing Disability Review Multi-Year Plan Completed

  03/16/01   Single Audit of the State of New Mexico for the Fiscal Year Ended June 30, 1999   A-77-01-00005

  03/28/01   Adherence to Time and Attendance Policies and Procedures in the Social Security   A-13-99-91025
             Administration’s Non-Headquarters Offices

  03/30/01   Unites States Agency for International Development Office of the Inspector        A-01-00-20044
             General Peer Review (Confidential Report)

  03/30/01   Review of the Social Security Administration’s Organizational Capacity to         A-02-00-20020
             Monitor and Plan for Customer Service Initiatives

  03/30/01   Use of Sanctioned Medical Providers by State Disability Determination Services    A-07-99-24006

             Information Technology Capital Planning and Investment Control Process at the
  03/30/01   Social Security Administration                                                    A-14-99-12004
50                                                                 FY 2001 SEMIANNUAL REPORT TO CONGRESS




                              Reports with Questioned Costs

Date Issued      Title of Report                                                  Report Number     Dollar Amount

     01/12/01   Single Audit of the Michigan Family Independence                   A-77-01-00001        $1,800,000
                Agency for the 2-Year Period Ending September 30, 1996

                Single Audit of the District of Columbia’s Department of                                 To Be
     02/05/01   Human Services for the Fiscal Year Ended September 30,
                1997                                                               A-77-01-00002      Determined

                Single Audit of the District of Columbia’s Department of                                 To Be
     02/05/01   Human Services for the Fiscal Year Ended September 30,
                1998                                                               A-77-01-00003      Determined

                Audit of the Administrative Costs Claimed by the District
     02/08/01                                                                      A-13-98-91003          $226,741
                of Columbia Disability Determination Division

                Audit of the Administrative Costs Claimed by the Oregon
     02/26/01                                                                      A-15-99-52021          $180,668
                Disability Determination Services

                Single Audit of the State of Mississippi for the Fiscal Year                             To Be
     03/29/01   Ended June 30, 1999                                                A-77-01-00004
                                                                                                      Determined

                Single Audit of the State of Alabama for the Fiscal Year                                 To Be
     03/29/01   Ended September 30, 1999                                           A-77-01-00006
                                                                                                      Determined

                Single Audit of the State of New York for the Fiscal Year
     03/29/01                                                                      A-77-01-00007          $475,785
                Ended March 31, 1999
                Payments to Young Spouses and Surviving Spouses
     03/30/01                                                                      A-09-00-10002          $406,194
                Without Child In-Care

                                                                                          TOTAL:      $3,089,388




                        Reports with Funds Put to Better Use

Date Issued                        Title of Report                             Report Number       Dollar Amount

03/29/01        Single Audit of the State of Alabama for the Fiscal                                    To Be
                Year Ended September 30, 1999                                  A-77-01-00006
                                                                                                    Determined

                                                                                         Total:                  $0
SSA OFFICE OF THE INSPECTOR GENERAL   51




                APPENDICES

52   FY 2001 SEMIANNUAL REPORT TO CONGRESS
SSA OFFICE OF THE INSPECTOR GENERAL                                                                      53




Appendix A
Government Performance and Results Act Work Plan
We continually update our 3-year work plan to review the Social Security Administration's
(SSA) implementation of the Government Performance and Results Act (GPRA) of 1993.
The plan is based on SSA's Fiscal Year (FY) 2000, Revised Final FY 2000, and FY 2001
Annual Performance Plans, which established the following broad strategic goals. The com­
plete text of SSA's Strategic Plan can be found on the Internet at www.ssa.gov.
•	    Goal 1: To promote valued, strong, and responsive Social Security programs and con-
      duct effective policy development, research, and program evaluation
•     Goal 2: To deliver customer-responsive, world-class service
•	    Goal 3: To ensure the integrity of Social Security programs, with zero tolerance for
      fraud and abuse
•     Goal 4: To be an employer that values and invests in each employee
•     Goal 5: To strengthen public understanding of the Social Security programs
Each of these strategic goals has supporting objectives and corresponding performance
indicators and goals. The following is our plan for reviewing SSA's GPRA implementation
and performance measures. As performance measures and goals change in future annual
performance plans, we will adjust our work plan accordingly.

FY 1999—Completed Reviews
In FY 1999, we conducted performance measure reviews to determine the reliability of the
data used to measure the following SSA performance indicators and goals from SSA's FY
2000 Annual Performance Plan.




     Strategic Goal—To deliver customer-responsive, world-class service
     Objective—By 2002, to have 9 out of 10 customers rate SSA’s service as good, very good,
     or excellent, with most rating it excellent

                                 Performance Indicator                                    FY 2000 Goal

    Percent of SSA's core business customers rating SSA's overall service as excellent,       88
    very good, or good

    Percent of SSA's core business customers rating SSA's overall service as excellent        37

    Percent of SSA's core business customers rating the clarity of SSA's notices as
    excellent, very good, or good                                                             82
54                                                      FY 2001 SEMIANNUAL REPORT TO CONGRESS




      Objective—To raise the number of customers who receive service and payments on time

                                    Performance Indicator                                   FY 2000 Goal

     Percent of original and replacement Social Security number (SSN) cards issued within
     5 days of receiving all necessary information                                               97




               FY 2000—Completed Reviews
               In FY 2000, we completed a survey of the data sources SSA uses to produce its perfor­
               mance data and a review of the FY 2000 Annual Performance Plan. We also completed per­
               formance measure reviews to determine the reliability of the data used to measure the
               following SSA performance indicators and goals from SSA's FY 2000 and Revised Final FY
               2000 Annual Performance Plans.



      Strategic Goal—To deliver customer-responsive, world-class service

                              Output Measures for Major Budgeted Workloads

     Retirement and Survivors Insurance claims processed                                       3,134,800

     Supplemental Security Income (SSI) aged claims processed                                   144,200
     SSN requests processed                                                                   16,300,000




      Objective—To raise the number of customers who receive service and payments on time

                                    Performance Indicator                                   FY 2000 Goal

     Percent of Old-Age and Survivors Insurance (OASI) claims processed by the time the
     first regular payment is due or within 14 days from effective filing date, if later        83

     Percent of initial SSI aged claims processed within 14 days of filing date                 66




      Strategic Goal—To make SSA program management the best-in-business, with zero
      tolerance for fraud and abuse (This goal was revised in SSA’s current plan as shown
      under Goal 3 on page 53)
                              Output Measures for Major Budgeted Workloads

     Continuing Disability Reviews (CDR) processed                                              1,882,700

     Annual Earnings postings                                                                 258,900,000
     Representative Payee actions                                                               6,990,600
SSA OFFICE OF THE INSPECTOR GENERAL                                                                         55




  Objective—To make benefit payments in the right amount

                               Performance Indicator                                      FY 2000 Goal

 Dollar accuracy of OASI payment outlays:

                                                     Percent without overpayments              99.8

                                                    Percent without underpayments              99.8




   Objective—To maintain through 2002, current levels of accuracy and timeliness in post­
   ing earnings data to individuals' earnings records

                               Performance Indicator                                      FY 2000 Goal

 Percent of wage items posted to individuals’ records by September 30                           98




   Objective—To increase debt collections by 7 percent annually through 2002

                             Performance Indicator                                       FY 2000 Goal

 Old-Age, Survivors and Disability Insurance (OASDI) debt collected                      $1,274.9 million
 SSI debt collected                                                                       $684.8 million




  Strategic Goal—To be an employer that values and invests in each employee
  Objective—To provide a physical environment that promotes the health and well-being
  of employees

                               Performance Indicator                                      FY 2000 Goal

 Percent of employees reporting they are satisfied with the level of security in their          75
 facility



  Strategic Goal—To strengthen public understanding of the Social Security pro-
  grams
  Objective—By 2005, 9 out of 10 customers will be knowledgeable about the Social Secu­
  rity programs in 5 important areas

                              Performance Indicator                                       FY 2000 Goal

Percent of individuals issued a SSA-Initiated Personal Earnings and Benefit
                                                                                               100
Estimate Statement as required by law.
56                                                    FY 2001 SEMIANNUAL REPORT TO CONGRESS




               FY 2001—Completed Reviews
               To date in FY 2001, we have completed reviews that have determined the reliability of the
               data used to measure the following performance indicator and strategic objective from the
               FY 2001 Annual Performance Plan.


      Strategic Goal—To deliver customer-responsive, world-class service
                                Strategic Objective                                          Goal

     To raise the number of customers who receive service and payments on          By 2002, issue initial SSI
     time                                                                          disability claims award/
                                                                                  denial notices within 120
                                                                                  days of filing to 60 percent
                                                                                        of applicants.



      Strategic Goal—To make SSA program management the best-in-business, with zero
      tolerance for fraud and abuse (This goal was revised in SSA’s current plan as shown
      under Goal 3 on page 53)
      Objective—To become current with Disability Insurance and SSI CDR requirements by 2002
                                   Performance Indicator                                     FY 2001 Goal

     Percent of multi-year (FY 1996-2002) CDR plan completed                                        83



               FY 2001—Planned Reviews
               We have many additional ongoing performance measure reviews. We are currently review­
               ing SSA’s FY 1999 and FY 2000 Annual Performance Report and its FY 2001 Annual Per­
               formance Plan. We will begin a review of SSA’s FY 2002 Annual Performance Plan when it
               is released by the Agency. We are also in the process of conducting reviews that will opine
               on the reliability of the data used to measure the following SSA performance indicators and
               goals from SSA’s FY 2001 Annual Performance Plan.



      Strategic Goal—To promote valued, strong, and responsive Social Security programs
      and conduct effective policy development, research, and program evaluation
      Objective—Provide information for decisionmakers and others on the Social Security and
      SSI programs through objective and responsive research, evaluation, and policy develop­
      ment

                                   Performance Indicator                                    FY 2001 Goal

     Percent of customers assigning a high rating to the quality of SSA's research and        Establish a
     analysis products in terms of accuracy, reliability, comprehensiveness, and
     responsiveness                                                                            baseline
SSA OFFICE OF THE INSPECTOR GENERAL                                                                  57




   Objective—To promote policy changes, based on research and evaluation analysis, that
   shape the disability program in a manner that increases self-sufficiency and takes account
   of changing needs based on the medical, technological, demographic, job market, and
   societal trends

                               Performance Indicator                                  FY 2001 Goal

 Increase in number of Disability Insurance adult worker beneficiaries who begin a
 trial work period                                                                     10 percent

 Increase in the number of SSI disabled beneficiaries, aged 18-64, participating in
                                                                                       10 percent
 1619(a) status




  Strategic Goal—To deliver customer-responsive, world-class service

                              Output Measures for Major Budgeted Workloads

 Initial disability claims processed                                                   2,057,000

 Hearings processed                                                                     582,000

 800-number calls handled                                                              57,000,000




   Objective—By 2002, to have 9 out of 10 customers rate SSA's service as good, very good,
   or excellent, with most rating it excellent

                               Performance Indicator                                  FY 2001 Goal

 Percent of employers rating SSA’s overall service as excellent, very good, or good       94

 Percent of employers rating SSA’s overall service as excellent                           16

 Percent of callers who successfully access the 800-number within 5 minutes of
                                                                                          92
 their first call
 Percent of callers who successfully access the 800-number on their first attempt         86

 Percent of public with an appointment waiting 10 minutes or less                         85

 Percent of public without an appointment waiting 30 minutes or less                      70

 Percent of 800-number calls handled accurately:

                                                                   Service accuracy       90

                                                                  Payment accuracy        95
58                                                   FY 2001 SEMIANNUAL REPORT TO CONGRESS




      Objective—By 2002, to increase the range of program information services available to
      customers over the phone and electronically

                                 Performance Indicator                          FY 2001 Goal

     Number of online Social Security Statement requests as compared to the   50 percent initiated
     number of 800-number automated response unit Social Security Statement
     requests                                                                   on the internet




      Objective—To raise the number of customers who receive service and payments on time

                                  Performance Indicator                           FY 2001 Goal

     Initial disability claims average processing (days)                               117

     Hearings average processing time (days)                                           208




      Strategic Goal—To make SSA program management the best-in-business, with
      zero tolerance for fraud and abuse. (This goal was revised in SSA’s current plan as
      shown under Goal 3 on page 53)
                             Output Measures for Major Budgeted Workloads

     SSI nondisability redetermination                                          2,050,500



      Objective—To make benefit payments in the right amount

                                   Performance Indicator                           FY 2001 Goal

     Disability Determination Services net decisional accuracy rate                      97

     Percent of SSNs issued accurately                                                  99.8

     Office of Hearings and Appeals decisional accuracy rate                             87




      Objective—To maintain through 2002, current levels of accuracy and timeliness in post­
      ing earnings data to individuals' earnings records

                                   Performance Indicator                           FY 2001 Goal

     Percentage of earnings posted correctly                                             99
SSA OFFICE OF THE INSPECTOR GENERAL                                                                  59




  Objective—To aggressively deter, identify, and resolve fraud

                              Performance Indicator                                FY 2001 Goal

 Number of investigations conducted (i.e. closed)                                            8,000

 OASDI dollar amounts reported from investigative activities                          $55 million
 SSI dollar amounts reported from investigative activities                            $90 million

 Number of criminal convictions                                                              2,500




  Strategic Goal—To be an employer that values and invests in each employee
  Objective—To promote an Agency culture that successfully incorporates our values
                             Performance Indicator                                 FY 2001 Goal

 Create Agency change strategy                                                      Implement
                                                                                     strategy




  Objective—To create a workforce to service SSA’s diverse customers in the 21st century.

                       Performance Indicator                                  FY 2001 Goal

 Complete Agency plan for transitioning to the workforce of the future   Implement and update
                                                                         transition plan
                                                                         Develop and implement
                                                                         action items from
                                                                         employee survey



  Strategic Goal—To strengthen public understanding of the Social Security pro-
  grams
  Objective—By 2005, 9 out of 10 customers will be knowledgeable about the Social Secu­
  rity programs in 5 important areas

                             Performance Indicator                                 FY 2001 Goal

 Percent of public who are knowledgeable about Social Security programs             70 percent
60   FY 2001 SEMIANNUAL REPORT TO CONGRESS
SSA OFFICE OF THE INSPECTOR GENERAL                                                             61




Appendix B
Reporting Requirements Under the Omnibus
Consolidated Appropriations Act for Fiscal Year 1997
To meet the requirement of the Omnibus Consolidated Appropriations Act for 1997 (Pub­
lic Law 104-208), we are providing in this report requisite data for the first half of Fiscal
Year (FY) 2001 from the Offices of Investigations and Audit. We are reporting
$20,914,215 in Social Security Administration (SSA) funds as a result of our Office of
Investigations activities in this reporting period. These funds are broken down in the table
below.


                        1st Quarter           2nd Quarter               Total

   Court
   Ordered                   $4,933,617             $4,199,574            $9,193,191
   Restitution

   Scheduled
                             $4,255,046             $4,984,830            $9,239,876
   Recoveries

   Fines                       $280,351                 $2,902             $283,253

   Settlements/
   Judgments                   $851,608             $1,346,287            $2,197,895

           Totals        $10,320,622            $10,533,593           $20,914,215


SSA management also informed the Office of Audit that is has completed implementing
recommendations from two audit reports during this FY valued at $82.7 million.
Review of Controls Over Processing Income Alerts Which Impact Supplemental
Security Income Payments (A-05-98-21002), September 28, 2000
We recommended that SSA develop a plan to ensure that income alerts are worked more
timely and income estimates are used. The implemented recommendation is valued at
$60,444,802.
Conversion of Benefits for Spouses After the Death of a Wage Earner (A-09-99-
62009), September 27, 2000
We recommended that SSA modify the Regular Transcript, Attainment, and Selection Pass
program to identify all individuals receiving benefits as spouses or divorced spouses of
deceased beneficiaries. The implemented recommendation is valued at $22,300,000.
62   FY 2001 SEMIANNUAL REPORT TO CONGRESS
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                                       63




 Appendix C
 Collections From Audits and Investigations
 The Fiscal Year (FY) 1999 appropriations language for this office requires the reporting of
 additional information concerning actual collections and offsets achieved as a result of
 Inspector General activities. Figures are to be provided for each semiannual period as a
 cumulative number.


                                              Office of Audit Collections
                   Number           Questioned/             Management                Amount                Amount                  Balance
                     of             Unsupported             Concurrence              Collected or         Written Off/
                   Reports             Costs                                          Received            Adjustments

   FY 1997              6                 $3,964,487              $3,377,089             $3,372,181                $4,908                $587,398

   FY 1998             10               $14,661,078             $13,999,185a            $14,495,135           $1,612,923                 $390,625

   FY 1999             10               $83,989,044              $78,341,141             $4,359,257           $1,361,754             $78,268,033

   FY 2000              7               $76,991,654              $76,961,005                  $4,174               $1,155            $76,986,325

   FY 2001              9                 $3,089,388              $3,040,276             $1,871,794                     $0             $1,217,594

      Totals           42           $182,695,651            $175,718,696             $24,102,541           $2,980,740           $157,449,975
   a.SSA adjusted its management decision to concur with the monies recommended in Costs Claimed by the State of Michigan on the SSA’s Contract Number
  600-95-13780 (A-13-98-81033, 9/28/98).
64                                                     FY 2001 SEMIANNUAL REPORT TO CONGRESS




                       Office of Investigation Collections
Court Ordered Collections as the Result of Prosecution by the Department
of Justice
       FY 2001         Total Number of      Court Ordered Restitution for    Total Restitution Collected
     Year-to-Date    Individuals Assigned            This Period            by the Department of Justice

         1999                447                              $13,100,203                      $1,292,954

         2000                441                              $13,526,283                      $2,232,424

         2001                224                               $7,795,899                        $358,991

            Totals          1,112                          $34,422,385                       $3,884,369




                       Office of Investigation Collections
Funds Received Based on Recovery Actions
       FY 2001       Number of Recovery       Amount Scheduled for          Actual Amount Recovered at
     Year-to-Date     Actions Initiated           Recovery                  the Close of the Investigation

        1999                1,624                            $25,725,385                       $3,326,913

        2000                445                              $12,722,135                       $4,320,432

        2001                507                               $9,239,876                       $3,564,780

           Totals          2,576                           $47,687,396                     $11,212,125
SSA OFFICE OF THE INSPECTOR GENERAL                                                     65




Appendix D
Significant Monetary Recommendations From
Prior Fiscal Years for Which Corrective Actions
Have Not Been Completed
The Social Security Administration Incorrectly Paid Attorney Fees on Disability
Income Cases when Workers' Compensation Payments were Involved (A-04-98-
62001), March 8, 2000

   Recommendation: We recommended that the Social Security Administration
   (SSA) review the cases in our sample to determine the proper attorney fee pay­
   ment and take the required actions on the $18,410 in errors of which $17,238
   were overpayments and $1,172 were underpayments.
   Valued at: $33,852,529 in funds put to better use and $17,238 in questioned
   costs.
   Agency Response: SSA agreed. It will review the sample cases and take the
   appropriate action.
   Corrective Action: The SSA Office of Operations continues to review the five
   remaining sample cases.
School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007), Sep­
tember 27, 1999
   Recommendation: We recommended that SSA request assistance from school
   officials in identifying and reporting changes in student attendance which may
   affect their benefit status.
   Valued at: $140,359,563 in funds put to better use and $73,907,760 in ques­
   tioned costs.
   Agency Response: SSA agreed that its monitoring of school attendance for
   child beneficiaries over age 18 could be more efficient with additional assistance
   from the school.
   Corrective Action: SSA plans to focus on the front-end of the process by having
   the student obtain a school official's certification of his/her school attendance
   before SSA awards student benefits. The student will also leave a form with a
   school official reporting changes in a student's attendance. The new process is
   targeted for implementation by the Spring of 2001.
66   FY 2001 SEMIANNUAL REPORT TO CONGRESS
SSA OFFICE OF THE INSPECTOR GENERAL                                                        67




Appendix E
Significant Nonmonetary Recommendations
From Prior Fiscal Years for Which Corrective
Actions Have Not Been Completed
Patterns of Reporting Errors and Irregularities by 100 Employers with the Most
Suspended Wage Items (A-03-98-31009), September 29, 1999

   Recommendation: We recommended that the Social Security Administration
   (SSA) develop and implement a corrective action plan for the 100 employers
   who are responsible for large numbers of suspended wage items and continue its
   current efforts to contact them.
   Agency Response: SSA agreed that corrective action should be taken.
   Corrective Action: SSA is in its third year of contacting the 100 employers with
   large numbers of suspended wage items. They plan to continue these efforts as a
   way of educating these employers of the importance of submitting accurate wage
   reports.
Nonresponder Representative Payee Alerts for Supplemental Security Income
Recipients (A-09-96-62004), September 23, 1999
   Recommendation: We recommended that SSA develop procedures for employ­
   ees to redirect benefit checks to field offices (and require representative payees to
   provide the accounting forms before releasing the checks) in instances where
   other attempts to obtain the required forms have been unsuccessful.
   Agency Response: SSA agreed, in part. When a representative payee does not
   respond or will not cooperate after repeated attempts to obtain an annual
   accounting, the field office is required to consider a change of payee when neces­
   sary. When the field office determines that a change of payee is necessary, the
   office searches for a new payee. If a payee is not readily available, the beneficiary
   is paid directly or placed in suspense status under certain limited circumstances.
   Corrective Action: SSA proposed legislation to redirect benefit checks when
   representative payees fail to complete the required accounting form as part of a
   package of improvements to the payee monitoring process. While it was not
   passed in the previous congressional session, there is the potential for the pro­
   posal to be considered in this congressional session.
68                                       FY 2001 SEMIANNUAL REPORT TO CONGRESS




     The Social Security Administration's Procedures to Identify Representative Pay­
     ees Who Are Deceased (A-01-98-61009), September 22, 1999

        Recommendation: We recommended that SSA routinely match the Death Mas­
        ter File against the Master Representative Payee File to identify deceased repre­
        sentative payees and select new representative payees for all beneficiaries and/or
        recipients affected.
        Agency Response: SSA agreed with the intent of the recommendation, that is,
        to identify all cases where a representative payee has died so that the appropriate
        payee change can be taken. SSA believes that the actions envisioned in the
        Agency's Enumeration/Client 5-Year Systems Plan will address the issue of better
        identifying representative payees who die. These actions include automatic
        checks of the Master Representative Payee File when a report of death from a
        third party is keyed into the Death Master File and new screens to reconcile dis­
        crepancies between databases with a single input.
        Corrective Action: Corrective activity was expected to begin in December 2000.
        However, resources were redirected to higher priority projects. A revised imple­
        mentation date can not be determined at this time.
     Early Alert: Disclosure of Personal Information on Representative Payees (A-01-
     99-82008), January 21, 1999 (CONFIDENTIAL MEMORANDUM)
        Recommendation: SSA should verify the death information for the 6,004 repre­
        sentative payees our match shows as deceased on the Death Master File but cur­
        rently serving as representative payees for beneficiaries on the Master Beneficiary
        Record and the Supplemental Security Record.
        Agency Response: The Agency has not yet issued a management decision.
        Corrective Action: Corrective action has not yet been reported.
SSA OFFICE OF THE INSPECTOR GENERAL                                                     69




Appendix F
Significant Management Decisions With Which
the Inspector General Disagrees

Obstacles to Reducing Social Security Number Misuse in the Agriculture Indus­
try (A-08-99-41004), January 22, 2001

   Recommendation: We recommended that the Social Security Administration
   (SSA):
   (1) Introduce legislation that would provide SSA the authority to require
   chronic problem employers to use the Enumeration Verification System (EVS).
   (2) Collaborate with the Immigration and Naturalization Service (INS) to
   develop a better understanding of the extent that immigration issues contribute
   to Social Security number misuse and growth of the Earnings Suspense File.
   Additionally, SSA should reevaluate its application of existing disclosure laws or
   seek legislative authority to remove barriers that would allow the Agency to
   share information regarding chronic problem employers with INS.
   Agency Response: The Agency will not be implementing these recommenda­
   tions. SSA states the Internal Revenue Service (IRS) currently has the authority
   to penalize employees who do not comply with wage reporting requirements.
   Additionally, SSA identified the major offenders of EVS for Tax Years 1996-
   1998 and provided this information to IRS.
   OIG Comment: We continue to believe it is important that SSA seek legisla­
   tive authority to require employers who submit inaccurate wage reports to use
   EVS. This would assist IRS in its effort to apply penalties by providing it with
   evidence to show an employer knew, or should have known, its employees’
   Social Security numbers were incorrect. Further, until SSA requires these
   employers to use EVS and holds them accountable for their actions, we do not
   believe employer wage reporting will significantly improve. We also continue to
   believe SSA should collaborate with INS to determine the extent to which
   immigration issues contribute to these problems.
70                                      FY 2001 SEMIANNUAL REPORT TO CONGRESS




     The Social Security Administration Incorrectly Paid Attorney Fees on Disabil­
     ity Income Cases when Workers' Compensation Payments were Involved (A-04-
     98-62001), March 8, 2000

        Recommendation: We recommended that SSA verify that State worker's com­
        pensation payment information is current and accurate when past due benefits
        are paid to claimants and attorney fees are calculated.
        Agency Response: SSA completed a study on this recommendation and
        believes implementation would constitute a major change in processing Work­
        ers’ Compensation claims. While the beneficiary’s payments and the resulting
        attorney fee payment may be more accurate using this method, the impact of
        further delaying payments to the claimant is a major consideration. SSA does
        not plan to implement this recommendation.
     Special Joint Vulnerability Review of the Supplemental Security Income Pro-
     gram (A-04-95-06020), December 16, 1997
        Recommendation: We recommended that SSA modify the Supplemental
        Security Income Display to include additional comments or codes for the iden­
        tification of potential fraud/abuse cases, subject to SSA's evaluation of the most
        advantageous method of presentation on the Supplemental Security Income
        Display.
        Agency Response: When this recommendation was first presented to the
        Agency, it decided to have the Office of General Counsel (OGC) determine the
        legality of the coding. OGC opined that developing a code or inputting
        remarks based on “potential” or “suspected” fraud or abuse would leave SSA or
        the State Disability Determination Services open to civil action. As a result,
        SSA will not pursue this recommendation further.
How to Report Fraud

The Social Security Administration's (SSA) Fraud Hotline offers a convenient means
for you to provide information on suspected fraud, waste, and abuse. If you
know of current or potentially illegal or improper activities involving SSA pro-
grams or personnel, we encourage you to contact the SSA Fraud Hotline.

                                      Call
                                1-800-269-0271

                                     Write
                        Social Security Administration

                        Office of the Inspector General

                        Attention: SSA Fraud Hotline

                                 P.O. Box 17768

                             Baltimore, MD 21235


                              (FAX) 410-597-0118


                                     Email
                               oig.hotline@ssa.gov


                        For More Information...
                              Visit our web site at:
                             http://www.ssa.gov/oig/
